No. 19-____
IN THE

Supreme Court of the United States
————
STRIKEFORCE TECHNOLOGIES, INC.,
v.

Petitioner,

SECUREAUTH CORPORATION,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
SALVATORE P. TAMBURO
CHARLES W. SABER
Counsel of Record
S. GREGORY HERRMAN
BLANK ROME LLP
1825 Eye St. N.W.
Washington, D.C. 20006
(202) 420-2200
stamburo@blankrome.com
csaber@blankrome.com
gherrman@blankrome.com
Counsel for Petitioner
July 19, 2019
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
In Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 134 S. Ct.
2347 (2014), this Court explained a two-step test for
determining whether a patent claim is directed to
patent eligible subject matter under 35 U.S.C. § 101.
First, “we determine whether the claims at issue are
directed to one of those patent-ineligible concepts.” Id.
at 2355. Second, if so, “we must examine the elements
of the claim to determine whether it contains an
‘inventive concept,” an “element or combination of
elements that is sufficient to ensure that the patent in
practice amounts to significantly more than a patent
upon the ineligible concept itself.” Id. at 2355, 2357
(internal quotation marks omitted).
In Berkheimer v. HP Inc., fka Hewlett-Packard Co.,
881 F.3d 1360 (Fed. Cir. 2018) (“Berkheimer CAFC”),
the panel stated, among other things, that the inquiry
under step two of Alice, “whether a claim element or
combination of elements is well-understood, routine
and conventional to a skilled artisan in the relevant
field is a question of fact.” App., infra, 32a (emphasis
added). This Court is currently considering whether
to grant a petition for writ of certiorari in HP Inc., fka
Hewlett-Packard Company, Petitioner v. Steven E.
Berkheimer, Respondent, 18-415 (petition filed September 28, 2018) (“Berkheimer SCT”), to address the
proper analysis under step two of Alice. The issues in
this case are the same as in Berkheimer SCT. The
question presented in this case is:
Whether the Federal Circuit conducted the proper
analysis under step two of Alice, as this Court will
explain it, should certiorari be granted in Berkheimer
SCT.

(i)

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner StrikeForce Technologies, Inc. was plaintiff in the district court and appellant in the court
of appeals. Respondent SecureAuth Corporation was
defendant in the district court and appellee in the
court of appeals.
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, petitioner
StrikeForce Technologies, Inc. states that it has no
parent corporation, and that no publicly held company
owns 10% or more of StrikeForce’s stock.
RELATED PROCEEDINGS
Strikeforce Technologies, Inc. v. Secureauth
Corporation, 18-1470 (Fed. Cir.) (February 19, 2019)
Strikeforce Technologies, Inc. v. Secureauth
Corporation, 2:17-cv-04314-JAK-SK (C.D. Cal.)
(December 28, 2017)
Strikeforce Technologies, Inc. v. Secureauth
Corporation, 1:17-cv-00307-CMH-TCB (E.D. Va.)
(Transferred to C.D. Cal. June 12, 2017)

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDINGS BELOW ...

ii

CORPORATE DISCLOSURE STATEMENT .....

ii

RELATED PROCEEDINGS ...............................

ii

TABLE OF AUTHORITIES ................................

v

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

STATUTORY PROVISION INVOLVED ............

1

STATEMENT OF THE CASE ............................

1

I. Legal Background .....................................

2

II. Proceedings Below ....................................

3

A. The Claimed Invention........................

3

B. Before Berkheimer CAFC was decided,
the district court granted SecureAuth’s
motion to dismiss under § 101 ............

4

C. The Berkheimer CAFC decision ..........

5

D. StrikeForce’s Appeal to the Federal
Circuit and the Rule 36 Decision ........

7

III. THE RESOLUTION OF BERKHEIMER
SCT WILL ALMOST CERTAINLY
IMPACT THIS CASE ...............................

8

A. Issues Raised By Berkheimer CAFC...

8

B. This Court’s Resolution of the Issues
Raised by Berkheimer CAFC Almost
Certainly Will Require the Federal
Circuit to Revisit this Case .................
(iii)

13

iv
TABLE OF CONTENTS—Continued
Page
CONCLUSION ....................................................

17

APPENDIX
APPENDIX A: JUDGMENT, U.S. Court of
Appeals for the Federal Circuit (February
19, 2019) .........................................................

1a

APPENDIX B: ORDER, U.S. District Court
for the Central District of California
(December 1, 2017) .........................................

3a

APPENDIX C: OPINION, U.S. Court of
Appeals for the Federal Circuit (February 8,
2018) ...............................................................

21a

APPENDIX D: ORDER, U.S. Court of
Appeals for the Federal Circuit (May 31,
2018) ...............................................................

39a

APPENDIX D: RELEVANT STATUTORY
PROVISION: The Patent Act, 35 U.S.C.
§ 101 ................................................................

72a

v
TABLE OF AUTHORITIES
CASES

Page(s)

Aatrix Software, Inc. v. Green Shades
Software, Inc.,
882 F.3d 1121 (Fed. Cir. 2018) .................

9

Alice Corp. Pty. Ltd. v. CLS Bank Int’l,
134 S. Ct. 2347 (2014) ..............................passim
Berkheimer v. HP Inc., fka
Hewlett-Packard Co.,
881 F.3d 1360 (Fed. Cir. Feb. 8, 2018) ....passim
BSG Tech LLC v. Buyseasons, Inc.,
899 F3d 1281 (Fed. Cir. 2018) ............ 11, 13, 14
Cellspin Soft, Inc. v. Fitbit, Inc.,
No. 2018-2178 (June 25, 2019) .................

11

HP Inc., fka Hewlett-Packard Co. v.
Berkheimer,
No. 18-415 (filed Sept. 28, 2018) .............passim
Microsoft Corp. v. i4i Ltd. P’ship,
564 U.S. 91 (2011) .....................................

6

CONSTITUTION
U.S. Const. art. I, § 8, cl. 8 ...........................

2

STATUTES
28 U.S.C. § 1254(l) ........................................

1

35 U.S.C. § 101 ............................................passim
35 U.S.C. § 102 ......................................... 8, 10, 11
35 U.S.C. § 103 ......................................... 8, 10, 11
35 U.S.C. § 112 ............................................. 10, 11

vi
TABLE OF AUTHORITIES—Continued
RULES

Page(s)

Fed. R. Civ. P. 36 .........................................passim

PETITION FOR A WRIT OF CERTIORARI
StrikeForce Technologies, Inc. (“StrikeForce”) respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Federal Circuit in this case.
OPINIONS BELOW
The court of appeals’ judgment under Federal Circuit
Rule 36 (App., infra, 1a-2a) and the district court’s order
granting SecureAuth Corporation’s (“SecureAuth’s”)
motion to dismiss (App., infra, 3a-20a) are unreported.
JURISDICTION
The court of appeals entered judgment on February
19, 2019 (App., infra, 1a-2a). On May 9, 2019, the
Chief Justice extended the time to file a petition for
writ of certiorari to and including July 19, 2019. This
Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED
The relevant provision of the Patent Act, 35 U.S.C.
§ 101, is set forth in the Appendix (App., infra, 72a).
STATEMENT OF THE CASE
This case concerns the proper analysis under step
two of Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 134
S. Ct. 2347 (2014), for determining whether a claim
directed to abstract subject matter is nonetheless patent
eligible because the claim adds “additional elements”
that “as an ordered combination” reflect an “inventive
concept.” Id. at 2355.
As explained below, there is currently much confusion in the United States Court of Appeals for the
Federal Circuit regarding the proper analysis for determining whether an otherwise abstract claim includes

2
an “inventive concept” under step two of Alice. This
Court is currently considering whether to grant a
petition for writ of certiorari in HP Inc., fka HewlettPackard Company, Petitioner v. Steven E. Berkheimer,
Respondent, 18-415 (petition filed September 28, 2018)
(“Berkheimer SCT”), to address these same issues.
More specifically, both cases raise the question of
whether determining “inventive concept,” the second
prong under Alice, is a question of law or a question of
fact, and, equally as important, how that determination is properly implemented. On January 7, 2019,
the Court invited the Solicitor General to file a brief
expressing the views of the United States. To date, the
Solicitor General has not yet filed a brief in response
to the invitation.
This Court’s resolution of the issues raised by
Berkheimer SCT, should the certiorari petition be
granted, almost certainly will require the Federal
Circuit to revisit its decision in this case. Because this
case and Berkheimer SCT present essentially the same
issues, the Court should hold the petition in this case
pending Berkheimer SCT and then dispose of it as
appropriate in light of its decision in Berkheimer SCT.
I. Legal Background
In the Patent Act, Congress—exercising its power
“[t]o promote the progress of science and useful arts,
by securing for limited times to authors and inventors
the exclusive right to their respective writings and
discoveries,” U.S. Const., art. I, § 8, cl. 8—provided
that “[w]hoever invents or discovers any new and
useful process, machine, manufacture, or composition
of matter, or any new and useful improvement thereof,
may obtain a patent therefor.” 35 U.S.C. § 101.

3
Section 101 contains an implicit exception: “Laws of
nature, natural phenomena, and abstract ideas are
not patentable.” Alice, 134 S. Ct. at 2354. In Alice,
this Court discussed patents concerning abstract ideas
and explained a two-step test. First, “we determine
whether the claims at issue are directed to one of those
patent-ineligible concepts.” Id. at 2355. Second, if so,
“we must examine the elements of the claim to
determine whether it contains an inventive concept,”
an “element or combination of elements that is sufficient to ensure that the patent in practice amounts to
significantly more than a patent upon the ineligible
concept itself.” Id. at 2355, 2357 (internal quotation
marks omitted).
II. Proceedings Below
A. The Claimed Invention
This case involves U.S. Patent Nos. 7,870,599;
8,484,698; and 8,713,701 (“the Asserted Patents”)
directed to a novel system and method for conducting
completely “out of band” authentication. Rather than
using a single channel for accessing protected information (e.g., a user’s bank account on the bank’s
website), the Asserted Patents describe two separate
channels: an “access channel” for accessing the protected information and an “authentication channel”
for authenticating the user seeking access over the
access channel. The user’s user name and password
are intercepted on the access channel (e.g., via the
Internet) and sent to a security computer on the
authentication channel. The security computer sends
a prompt for information to the user on the separate
authentication channel (e.g., via a telephone call
placed to the user over the telephone communication
system) and the user responds to the prompt on the
separate authentication channel. Once the security

4
computer verifies the authenticity of the user based on
the response received over the authentication channel,
an instruction is sent from the authentication channel
to the access channel to allow the user access to the
protected information.
B. Before Berkheimer CAFC was decided,
the district court granted SecureAuth’s
motion to dismiss under § 101
SecureAuth moved to dismiss the complaint on the
ground that the Asserted Patents are invalid under 35
U.S.C. § 101. The district court found the asserted
claims are directed to an abstract idea, under step one
of Alice. The district court then noted that to defeat
the motion under step two of Alice, “the claims must
include features that are significantly beyond ‘wellunderstood, routine, conventional activity,’ or a simple
‘instruction to implement or apply the abstract idea on
a computer.’” App., infra, 9a (citations omitted).
StrikeForce described the Asserted Claims as reciting the following ordered combination:
1. Separation of the access and authentication channels;
2. Interception of the login identification
and demand for access, which are routed to a
security computer in the second channel;
3. Initial verification of the user’s login
identification;
4. Transmission of a prompt by the security
computer through a second, separate transmission channel;

5
5. Receipt by the security computer of a
response through that same authentication
channel; and
6. Transmission of an instruction from the
authentication channel (e.g., the security
computer) to the access channel (e.g., host
computer) to grant access to the user.
App., infra, 11a-12a.
StrikeForce explained this ordered combination
offered enhanced security over prior art systems by
preventing the type of hacking attacks to which prior
art systems were vulnerable. StrikeForce also pointed
to the specification as denigrating prior art authentication systems and describing the advantages of the
ordered combination over the prior art. App., infra, 13a.
SecureAuth argued that the ordered combination was
not an additional feature but a necessary element of
any out-of-band authentication process. App., infra, 14a.
The district court resolved this dispute in SecureAuth’s
favor, concluding that the ordered combination is
“nothing more than an obvious and logical structure
for the step-by-step process for sending and receiving
information through a system that has an authenticating feature.” App., infra, 16a. In so ruling, the district
court did not state whether it was applying a clear and
convincing or preponderance of the evidence standard.
Finding that neither step of Alice was met, the district
court granted the motion to dismiss on December 1, 2017.
C. The Berkheimer CAFC decision
Two months after the district court granted
SecureAuth’s motion to dismiss, the Federal Circuit
decided Berkheimer CAFC on February 8, 2018.
There, the district court, following this Court’s two-

6
step test from Alice, granted summary judgment
against the patent holder finding the patent invalid
under § 101. The district court found the claims were
abstract under Alice step one. When it reached Alice
step two, the district court found that the claims
recited nothing more than the performance of wellunderstood, routine and conventional activities previously known to the industry. App., infra, 34a.
The Federal Circuit reversed. It held that while
patent eligibility is a question of law, it may contain
underlying factual issues. App., infra, 26a. The panel
stated that the inquiry under step two of Alice,
“whether a claim element or combination of elements
is well-understood, routine and conventional to a
skilled artisan in the relevant field is a question of
fact.” App., infra, 32a (emphasis added). The panel also
stated this question of fact, like any fact “pertinent to
the invalidity conclusion, must be proven by clear and
convincing evidence.” Id. (citing Microsoft Corp. v. i4i
Ltd. P’ship, 564 U.S. 91, 95 (2011)).
In Berkheimer CAFC, the Federal Circuit further
explained that “improvements in the specification,
to the extent they are captured in the claims, create
a factual dispute regarding whether the invention
describes well-understood, routine, and conventional
activities.” App., infra, 36a. Berkheimer CAFC ultimately found there was a genuine issue of material
fact as to whether four asserted claims (claims 4-7),
which recited the improvements described in the
specification, perform well-understood, routine, and
conventional activities to a skilled artisan, and thus,

7
summary judgment was inappropriate as to those
claims. App., infra, 37a-38a.1
D. StrikeForce’s Appeal to the Federal
Circuit and the Rule 36 Decision
On appeal, StrikeForce relied on Berkheimer CAFC
to argue that, at the very least, the case should be
remanded to the district court for further fact finding
regarding whether the ordered combination was wellunderstood, routine, and conventional. StrikeForce
pointed to relevant portions of the specification and
the complaint describing improvements of the invention over the prior art, to support its position that the
ordered combination was not well-understood, routine,
and conventional. As required by Berkheimer CAFC,
the ordered combination is captured in the claims.
StrikeForce argued that because the claimed improvements created a genuine dispute of material fact
regarding whether the invention describes “well-understood, routine, and conventional activities,” the district
court erred in granting SecureAuth’s motion to dismiss.
In response, SecureAuth argued that the alleged
improvements were not material facts because they
describe the use of two separate channels, which is
part of the abstract idea. This ignored that the ordered
combination includes more than just two channels, but
also includes an interception device controlling the
way information flows between the two channels. As
the specification explains, this controlling of the
information between the two separate channels is an
improvement over the prior art and goes to the heart

1

The Federal Circuit affirmed for those claims that did not
include the arguable inventive concept. App., infra, 36a-38a.

8
of why the invention is not “well-understood, routine,
and conventional.”
Oral argument was heard on February 4, 2019, and
on February 19, 2019, the Federal Circuit issued a
Judgment under Federal Circuit Rule 36, affirming
the district court’s judgment without opinion. App.,
infra, 1a-2a.
III. THE RESOLUTION OF BERKHEIMER
SCT WILL ALMOST CERTAINLY IMPACT
THIS CASE
A. Issues Raised By Berkheimer CAFC
Almost immediately after the Federal Circuit
decided Berkheimer CAFC, there was considerable
discussion and divisions about the impact of the
decision and how it was changing the legal landscape.
Many of these divisions surfaced in the three written
opinions from the Federal Circuit’s denial of rehearing
and rehearing en banc. For example, Judge Reyna, in
dissenting from the denial of rehearing en banc,
believed that the entire § 101 analysis should be a
legal determination focused on the claims. In his view,
this issue should be akin to contract interpretation or
claim construction.
Like claim construction, he explained, the patent
eligibility determination can, in the vast majority of
instances, be decided by a review of the four corners of
the patent. A factual dispute beyond that would be
the exception and “should only occur in exceptional
circumstances.” App., infra, 70a. In this sense, he
believed it was important to resolve whether a § 101
analysis is more akin to a § 102 or § 103 analysis
(predominately factual) or to contract interpretation
or claim construction (predominantly legal). App.,
infra, 70a.

9
Judge Reyna also identified the enormous amount
of issues that arise from what he characterized as a
“profound change.” He noted that, in his view, this
change raises issues of: (a) to what extent will discovery be allowed; (b) does this factual inquiry extend
to other aspects of the § 101 inquiry; (c) can expert
opinion supplement the written description; (d) does
the court or jury decide factual issues; and (e) what
deference is due to the fact finder. App., infra, 59a60a. Likewise, Judge Reyna expressed his view that
Berkheimer CAFC will make it the rare case where §
101 disputes will be resolved early in the case, and
that this change by the Federal Circuit (in Berkheimer
CAFC and the companion case, Aatrix Software, Inc.
v. Green Shades Software, Inc., 882 F.3d 1121 (Fed.
Cir. 2018)) would reduce the § 101 inquiry into a
novelty analysis.2 App., infra, 65a.
Judge Lourie, in his concurring opinion denying
rehearing, was even more sweeping in his view of the
changes needed to § 101 jurisprudence. Expressing
his view that “the law needs clarification by a higher
authority,” Judge Lourie goes on to assert that there
is no need for a two-step approach. In his view, if
something is truly an abstract idea, it remains so. And
if something inventive is added by the claims (the step2

Judge Reyna also noted that Berkheimer CAFC has already
had a profound effect, both in patent prosecution and in the
courts. Judge Reyna noted that a USPTO memorandum now
provides that “an examiner should conclude that an element (or
combination of elements) represents well-understood, routine,
conventional activity only when the examiner can readily conclude that the element(s) is widely prevalent or in common use in
the relevant industry’ in step two of the Mayo/Alice test.”
Likewise, Judge Reyna noted that “district courts immediately
started relying on these decisions to deny summary judgment
motions.” App., infra, 59a-60a (emphasis in original).

10
two aspect of the test), then it is not an abstract idea,
and its patentability can be viewed under established
patentability provisions such as §§ 102 and 103. App.,
infra, 55a.
Judge Moore, the author of the original Berkheimer
CAFC decision, offered another concurring opinion.
Unlike Judge Reyna, her opinion asserted that the
underlying factual issues were more akin to other
invalidity defenses (anticipation, obviousness, § 112
defenses) rather than the issues in claim construction.
According to Judge Moore, whether activities were
well-understood, routine and conventional in the
relevant field is an issue of historical fact, while construing claims in light of the specification (performed
in claim construction) is a legal matter. While Judge
Moore did not specifically address the cases which
have denied summary judgment in light of Berkheimer
CAFC or the USPTO Memorandum referenced by
Judge Reyna, she did characterize Berkheimer CAFC
as a narrow decision and noted that since Berkheimer
CAFC was decided, the Federal Circuit has upheld the
granting of motions for summary judgment or motions
to dismiss on § 101 grounds. App., infra, 49a-50a.
On September 28, 2018, HP filed its Petition for Writ
of Certiorari (“Petition”), followed by the Opposition and
Reply and a number of amici supporting the grant of
certiorari. Not only did those submissions restate the
above-described different views between the Federal
Circuit judges, different views within the intellectual
property community and the impact of Berkheimer
CAFC both in prosecution and in litigation, but they
expanded upon them and identified still additional
issues.

11
For example, in the Petition, HP Inc., fka HewlettPackard Company, Petitioner v. Steven E. Berkheimer,
Respondent, No. 18-415 (Sept. 28, 2018), HP outlined
still another Federal Circuit view arising from its recent
decision in BSG Tech LLC v. Buyseasons, Inc., 899 F3d
1281 (Fed. Cir. 2018). In that case, the panel (J.
Reyna, J. Wallach, J. Hughes) acknowledged that the
specification, like the specification in Berkheimer CAFC,
described features in the claim as “unconventional
improvements over conventional systems.” Although
the panel recognized that this may create a factual
dispute as to whether the claimed features were
non-routine or unconventional, the panel called that
dispute irrelevant because, in its view, those non-routine
features were “abstract features.” Because of these
wholly disparate views, the Petition observed that
under the current law “the outcome of an appeal will
depend entirely on the membership of the panel.”
Petition at 34.
The Petition also raised other aspects of Berkheimer
CAFC that it believed to be problematic. HP argued
that adopting a “clear and convincing” standard has no
support in Supreme Court precedent and was a significant departure from past case law. Petition at 14-15.
Most recently, the Federal Circuit took this “clear-andconvincing” standard a step further, finding that patent
eligibility under § 101 is presumed much like patent
validity under §§ 102, 103 and 112. See Cellspin Soft,
Inc. v. Fitbit, Inc., No. 2018-2178, slip op. at 23 (June
25, 2019).
HP also contended that the Berkheimer CAFC test
changed the focus of step two of Alice from whether
there was an inventive step to a factually intense inquiry
whether the specification disclosed (and the claims
included) concepts that were non-routine. According

12
to HP, inventiveness and non-routine (a mere novelty
concept) are not the same things. Petition at 15-19.
Finally, HP asserted that Berkheimer CAFC improperly made the relevant time of inquiry when the
patent is filed. In HP’s view, whether subject matter
is patent eligible does not change over time (although
the anticipation/obviousness inquiry can change over
time). If subject matter is ineligible for a patent, that
result should be the same regardless of when the
patent was filed.
While the Certiorari Opposition challenged many of
the arguments set forth in the Petition (both on the
merits and whether it raised issues that should be
reviewed by this Court), the Opposition acknowledged
that the Petition appeared to raise both “the procedural
question of whether patent eligibility is a question of
fact or law,” and the “substantive question of whether
the Federal Circuit set the bar for patent eligibility too
low.” Brief of Respondent in Opposition, HP Inc.,
fka Hewlett-Packard Company, Petitioner v. Steven E.
Berkheimer, Respondent No. 18-415 (Dec. 5, 2018), at
23 (emphasis in original).
In Reply, HP agreed that both the procedural and
substantive aspects of Berkheimer CAFC were raised
by the question presented in the Petition. Reply of
Petitioner, HP Inc., fka Hewlett-Packard Company,
Petitioner v. Steven E. Berkheimer, Respondent No. 18415 (Dec. 17, 2018), at 3. HP also stated its view in
the Reply that by changing the focus of the Alice step
two inquiry to historic facts, the “fate of patents will
now depend on a factfinder’s resolution of credibility
determinations between dueling experts, with a defendant bearing the clear-and-convincing evidence burden.”
Id. at 4. The Reply also cited the numerous amici who
argued it will be difficult to resolve § 101 inquiries at

13
early stages of the litigation and thus, will inevitably
prolong litigation time and expense. Id. at 4-5.
B. This Court’s Resolution of the Issues
Raised by Berkheimer CAFC Almost
Certainly Will Require the Federal
Circuit to Revisit this Case
At this juncture, it is impossible to know how this
Court will resolve the Berkheimer CAFC issues should
it grant certiorari. What is all but certain, however, is
that this Court’s resolution of the issues raised by the
Berkheimer SCT Petition should require the Federal
Circuit to reexamine the result in this case. This is
even more likely because, in this case, the Federal
Circuit resolved the appeal under Rule 36. We simply
have no idea the basis upon which the Federal Circuit
decided this appeal adversely against StrikeForce.
Nor do we have any idea how the Federal Circuit
conducted its analysis in light of the many contrasting
views about Berkheimer CAFC.
For example, this Court may examine what HP and
Berkheimer have called the “substantive” question of
what the bar should be for patent eligibility. Will the
inquiry be focused on whether there is evidence that
the specification discloses (and the claims include)
information that might be considered non-routine,
nonconventional solutions? If so, will it mean that
early disposition will be inappropriate if there is an
arguable position that the claims include such nonroutine, non-conventional solutions? Or will this
Court offer a more restrictive test? Will it adopt an
approach more akin to what is discussed in BSG,
where there is an inquiry as to whether the alleged
non-conventional disclosure in the specification is
nonetheless abstract? Or will it follow the path
suggested by Judge Lourie in his concurring opinion

14
denying rehearing in Berkheimer CAFC, and offer
an entirely new approach, rather than the two-step
approach set forth in Alice?
What we do know for certain is that whatever standard the Court adopts, it should require the Federal
Circuit to reexamine this case. Without question,
there was a dispute in this case as to whether the
claims included patent-eligible subject matter and
whether the specification and the claims included
material that was non-routine, non-conventional or
not well-understood. But we have no idea of the basis
on which the Federal Circuit decided those issues
against StrikeForce because the decision was rendered
under Rule 36. A remand will be required to have the
Federal Circuit review the case under whatever
standard is articulated by this Court.
Indeed, this case puts front and center the concern
expressed by HP that the outcome of appeals “will
depend entirely on the membership on the panel.”
In this case, the panel included Judge Lourie, who has
already expressed his view that the entire § 101 jurisprudence needs to be revisited and that the standards
to apply are unclear and in need of clarification. The
panel also included Judge Wallach, who joined in the
BSG opinion that applied an extremely limited view of
Berkheimer CAFC. This is all the more reason that
this case will need to be remanded after this Court
renders its opinion in Berkheimer SCT.
This Court may also rule upon the level of proof to
be used in deciding the §101 issue, namely whether
the clear and convincing burden, or a mere preponderance of evidence, is required. The district court never
stated what, if any, burden of proof it applied. As for
the Court of Appeals, again we simply do not know
what standard was applied. Once again, a remand will

15
be required, particularly if this Court rules that the
higher clear and convincing evidence standard is the
correct one.
Likewise, there is a significant dispute arising from
Berkheimer CAFC as to the role of novelty in deciding
the second Alice prong. HP, on the one hand, believes
that novelty plays a limited role in this § 101 inquiry,
while Berkheimer believes the second Alice prong and
novelty inquiry are closely entwined. We do know that
the district court in the instant case concluded that the
ordered combination was “logical and conventional,”
even though the specification states the combination
was novel and a great improvement over the prior art.
And once again, the Federal Circuit was silent on this
issue. This Court’s views on this subject will have to
be considered at least by the Federal Circuit in the
instant case.
An opinion by this Court on the “procedural” aspects
of Berkheimer CAFC should also require a remand. As
an initial matter, this Court will be called upon to
rule whether patent eligibility (or some aspect of it)
is resolved as a matter of fact or as a matter of law. In
the instant case, the issue of whether the ordered
combination recited in the claims was well-known,
routine, or conventional was hotly contested in the
district court. StrikeForce pointed to the operative
language of the claims and argued that these aspects
of the claims were not well known, routine or conventional. SecureAuth did not dispute that StrikeForce
had correctly identified the operative language of
the claims, but contended that these aspects of the
claims did not meet the operative requirements of the
second prong of Alice. The district court (in a decision
rendered before the Federal Circuit’s decision in
Berkheimer CAFC) resolved that question adversely to

16
StrikeForce. Although the district court did not explicitly state whether it was resolving a factual dispute,
the district court plainly believed it was its prerogative
and obligation to decide the dispute between the
parties regardless of whether it was resolving a factual
dispute.
In the Federal Circuit briefing (submitted after the
Berkheimer CAFC decision), StrikeForce did argue
that, at a minimum, whether these claim limitations
were well-known, routine or conventional was a question
of fact which should not have been decided by the
district court on a motion to dismiss. Once again, it
is not possible to know the Federal Circuit’s view on
this question because it affirmed under Rule 36.
Particularly given the panel (see supra at 14), it is
impossible to know if the Court even considered the
issue, let alone its reasoning.
Should this Court rule that the resolution of this
issue is a factual determination, there are a host of
other issues that this Court may consider and for
which it may provide guidance. For example, as Judge
Reyna stated in his dissent (and echoed by HP in its
Petition), these issues include what discovery will be
allowed, does this factual inquiry extend to other
aspects of the § 101 inquiry, can expert opinions
supplement the written description, does the court or
jury decide the factual issues, and what deference is
due to the fact finder. (App., infra, 59a-60a; Petition
at 9). There is also the issue of what is the relevant
time frame, if any, for the inquiry. We do know that
none of these issues were addressed either by the
district court or the Federal Circuit in the instant case
and, to the extent they are addressed by this Court,
they will need to be addressed on remand.

17
Finally, even if the Court decides that prong two of
Alice can be decided as a matter of law, there can also
be underlying factual issues (as even Judge Reyna
acknowledges). For example, in deciding claim construction, an issue of law, courts often hear evidence
(for example, from experts about how claim terms are
understood to a person of ordinary skill in the art),
and then the court makes its determination of the
proper claim construction. Similarly, even if the Court
decides in this case that prong two issues are decided
as a matter of law, it well may be that evidentiary
submissions from experts or other forms of evidence as
to what is well-known, routine or conventional should
be considered. None of that happened in this case, and
the guidance of this Court on these issues will most
likely impact the instant case.
CONCLUSION
The Petition for Writ of Certiorari should be held
pending this Court’s decision whether to grant certiorari
in Berkheimer SCT and if so, held pending this Court’s
decision in Berkheimer SCT and disposed of as appropriate in light of the Court’s decision in that case.
Respectfully submitted,
SALVATORE P. TAMBURO
CHARLES W. SABER
Counsel of Record
S. GREGORY HERRMAN
BLANK ROME LLP
1825 Eye St. N.W.
Washington, D.C. 20006
(202) 420-2200
stamburo@blankrome.com
csaber@blankrome.com
gherrman@blankrome.com
July 19, 2019

Counsel for Petitioner

APPENDIX

1a
APPENDIX A
NOTE: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2018-1470
————
STRIKEFORCE TECHNOLOGIES, INC.,
Plaintiff-Appellant,
v.
SECUREAUTH CORPORATION,
Defendant-Appellee.
————
Appeal from the United States District Court for the
Central District of California in
No. 2:17-cv-04314-JAK-SK,
Judge John A. Kronstadt.
————
DOUGLAS HALLWARD-DRIEMEIER, Ropes & Gray LLP,
Washington, DC, argued for plaintiff-appellant. Also
represented by SAMUEL LAWRENCE BRENNER, Boston,
MA; STEVEN PEPE, KEVIN JOHN POST, JOSEF B.
SCHENKER, New York, NY.
JEREMY ANGUS ANAPOL, Knobbe, Martens, Olson &
Bear, LLP, Irvine, CA, argued for defendant-appellee.
Also represented by JON W. GURKA, STEPHEN W.
LARSON; GABRIEL BELL, Latham & Watkins LLP,
Washington, DC.
————

2a
JUDGMENT
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (NEWMAN, MAYER, and DYK, Circuit
Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
February 19, 2019
Date

3a
APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No. LA CV17-04314 JAK (SKx)
Date

December 1, 2017

Title

Strikeforce Technologies, Inc. v. SecureAuth
Corporation

Present: The Honorable

JOHN A. KRONSTADT,
UNITED STATES
DISTRICT JUDGE

Andrea Keifer
Deputy Clerk
Not Reported
Court Reporter / Recorder
Attorneys Present for Plaintiffs:
Not Present
Attorneys Present for Defendants:
Not Present
Proceedings: (IN CHAMBERS) ORDER RE MOTION
TO DISMISS FIRST AMENDED
COMPLAINT (DKT. 87)
I. Introduction
StrikeForce Technologies (“Plaintiff”) brought this
patent infringement action against SecureAuth Corporation (“Defendant”). The First Amended Complaint
(“FAC” (Dkt. 85)), alleges that Defendant infringed
U.S. Patent No. 7,870,599 (the “’599 Patent”), U.S.
Patent No. 8,484,698 (the “’698 Patent”) and U.S.
Patent No. 8,713,701 (the “’701 Patent”) (collectively,

4a
the “Asserted Patents”). On July 21, 2017, Defendant
moved to dismiss the FAC (“Motion” (Dkt. 87)), on the
ground that the Asserted Patents are invalid under 35
U.S.C. § 101. Plaintiff opposed the Motion (Dkt. 104),
and Defendant replied. Dkt. 106. A hearing on the
Motion was held on October 2, 2017, and the matter
was taken under submission. For the reasons stated in
this Order, the Motion is GRANTED.
II. Background
Plaintiff holds all rights to the Asserted Patents,
which were issued between January 2011 and April
2014, and are a continuation of certain earlier patents.
FAC ¶¶ 10-12. The Asserted Patents are directed to
multichannel security systems and methods for authenticating a user seeking to gain access to a secure
network. Id. ¶ 13. Such networks include those used
for online banking, social networking and business
activities. Id. This field of technology is related to “outof-band” authentication, or “two-factor” or “multifactor” authentication. Id.
Plaintiff markets ProtectID®, which is a product
that performs out-of-band authentication pursuant to
the teachings of one or more of the Asserted Patents.
Id. ¶ 14. Plaintiff has offered this product since 2003.
Id. Since February 2011, the statutory patent notice
for the existing Patents has been displayed on the
ProtectID® website, www.strikeforcetech.com. Id. This
invention “provides a solution to problems caused by
the proliferation of data across the Internet by enhancing the functionality of computer systems compared to
prior art authentication systems through improved
security of the channels used for authentication and
access.” Id. ¶ 13.

5a
It is undisputed that Defendant offers certain twofactor authentication products for use on Android and
iOS devices. Id. ¶ 18. These products include SecureAuth
IdP, SecureAuth Cloud Access and SecureAuth
2-Factor as a Service, alone or in conjunction with
the SecureAuth Authenticate mobile application (collectively, “SecureAuth Products”). Id. Plaintiff argues
that each of the SecureAuth Products infringes one
or more claims of each of the Asserted Patents. In
support of this position, Plaintiff has identified the
following claims: 1, 7, 11, 17-19, 21, 22, 28, 31, 37 and
38 of the ’599 Patent; 1-6, 8, 10-16, 20-22, 46-48 and
50-54 of the ’698 Patent; and 1, 7, 11 and 17-19 of the
’701 Patent (collectively, the “Asserted Claims”). Id.
¶¶ 35, 36, 51, 52, 69, 70. The FAC alleges that
Defendant infringed the Asserted Patents both directly
and indirectly, by inducing and contributing to
infringement by third parties.
III. Analysis
A. Legal Standards
1. Motion to Dismiss
The Federal Circuit has “repeatedly affirmed § 101
rejections at the motion to dismiss stage, before claim
construction or significant discovery has commenced.”
Cleveland Clinic Found. v. True Health Diagnostics
LLC, 859 F.3d 1352, 1360 (Fed. Cir. 2017). In general,
a cause of action may be dismissed pursuant to Fed. R.
Civ. P. 12(b)(6) if it fails to state a claim upon which
relief can be granted. “To survive a motion to dismiss,
a complaint must contain sufficient factual matter,
accepted as true, to state a claim to relief that is
plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (citing Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570 (2007)) (internal quotation marks omitted).

6a
Plausibility is shown by factual allegations sufficient
to allow a reasonable inference that the alleged misconduct occurred. Id. When considering a motion to
dismiss, a court should first separate the “recitals of
the elements of [an] action” from the factual allegations. Id. The court should then assume the factual
allegations are true, and ignore the legal conclusions.
Id. The court should then examine the factual allegations and “determine whether they plausibly give rise
to an entitlement to relief.” Id. at 679.
2. Section 101 Eligibility
a. In General
“Section 101 defines the subject matter that may be
patented under the Patent Act . . . .” Bilski v. Kappos,
561 U.S. 593, 601 (2010). A patent may be issued to a
person who “invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof.”
35 U.S.C. § 101. “Section 101 thus specifies four
independent categories of inventions or discoveries
that are eligible for patent protection: processes,
machines, manufactures, and compositions of matter.”
Bilski, 561 U.S. at 601.
Although acknowledging that “[i]n choosing such
expansive terms . . . Congress plainly contemplated
that the patent laws would be given wide scope,”
the Supreme Court has identified three areas that
do not satisfy the requirements of Section 101: “laws
of nature, physical phenomena, and abstract ideas.”
Diamond v. Chakrabarty, 447 U.S. 303, 308-09 (1980).
These exceptions are consistent with the principles
that certain discoveries “are part of the storehouse of
knowledge of all men” and are “free to all men and
reserved exclusively to none.” Funk Bros. Seed Co. v.

7a
Kalo Inoculant Co., 333 U.S. 127, 130 (1948). The
Supreme Court has required that “[i]f there is to be
invention from . . . a hitherto unknown phenomenon of
nature . . ., it must come from the application of the
law of nature to a new and useful end.” Funk Bros.,
333 U.S. at 130. These rules apply to both product and
process claims. Gottschalk v. Benson, 409 U.S. 63, 6768 (1972).
Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 134 S. Ct.
2347 (2014), clarified the two-step test that a district
court is to apply in connection with the § 101 analysis
described in Mayo Collaborative Servs. v. Prometheus
Labs., Inc., 566 U.S. 66 (2012). The first step requires
a determination whether the asserted claims improve
technology or are directed to an abstract idea. The
second step requires a determination whether claims
that recite an abstract idea nevertheless present an
inventive concept that is patent eligible. The degree to
which a patent will preempt the use by others of
underlying processes, methods or solutions in related
applications is the “concern that drives this exclusionary principle.” Alice, 134 S. Ct. at 2354 (citation
omitted). Accordingly, “questions on preemption are
inherent in and resolved by the § 101 analysis” such
that “preemption concerns are fully addressed and made
moot” by the § 101 analysis. Ariosa Diagnostics, Inc. v.
Sequenom, Inc., 788 F.3d 1371, 1379 (Fed. Cir. 2015).
b. Alice Step One
In performing the analysis under the first step, a
court must “determine whether the claims at issue are
directed to one of those patent-ineligible concepts.”
Alice, 134 S. Ct. at 2355 (citing Mayo, 566 U.S. at 77).
Therefore, the question presented is whether the claims
“focus on a specific means or method that improves the
relevant technology” or are “directed to a result or

8a
effect that itself is the abstract idea and merely invoke
generic processes and machinery.” McRO, Inc. v. Bandai
Namco Games Am. Inc., 837 F.3d 1299, 1314 (Fed. Cir.
2016).
A district court is to review claims in their entirety
to determine “whether ‘their character as a whole is
directed to excluded subject matter.’” Enfish LLC v.
Microsoft Corp., 822 F.3d 1327, 1335 (Fed. Cir. 2016)
(quoting Internet Patents Corp. v. Active Network, Inc.,
790 F.3d 1343, 1346 (Fed. Cir. 2015)). This requires
“look[ing] to the claims as an ordered combination”
and reviewing “the requirements of the individual steps.”
McRo, 837 F.3d at 1313. For claims that concern
actions that involve the use of a computer, the Federal
Circuit has explained that it is “relevant to ask
whether the claims are directed to an improvement to
computer functionality versus being directed to an
abstract idea.” Enfish, 822 F.3d at 1335. “Abstraction
is avoided or overcome when a proposed new application or computer-implemented function is not simply
the generalized use of a computer as a tool to conduct
a known or obvious process, but instead is an improvement to the capability of the system as a whole.” Trading
Techs. Int’l, Inc. v. CQG, Inc., 675 F. App’x 1001, 1005
(Fed. Cir. 2017) (citing Enfish, 822 F.3d at 1336).
c. Alice Step Two
As noted, even if it is determined that the claims are
directed to an abstract idea, the inquiry continues.
Thus, in the second step the court must consider
“[w]hat else is there in the claims.” Alice, 134 S. Ct. at
2355 (citing Mayo, 566 U.S. at 76-77). This requires a
consideration of “the elements of each claim both individually and ‘as an ordered combination’ to determine
whether the additional elements ‘transform the nature
of the claim’ into a patent-eligible application.” Id.

9a
(citing Mayo, 566 U.S. at 78-79). In this second step, a
court must “search for an ‘inventive concept’—i.e., an
element or combination of elements that is ‘sufficient
to ensure that the patent in practice amounts to significantly more than a patent upon the [ineligible concept]
itself.’” Id. (citing Mayo, 566 U.S. at 72-73). This inquiry
determines whether claims directed to an abstract
idea nevertheless include an inventive concept that is
sufficient to transform the abstract idea into a patenteligible subject matter. Ultramercial, Inc. v. Hulu,
LLC, 772 F.3d 709, 715 (Fed. Cir. 2014). To meet this
standard, the claims must include features that are
significantly beyond “well-understood, routine, conventional activity,” id. (quoting Mayo, 566 U.S. at 79), or
a simple “instruction to implement or apply the
abstract idea on a computer.” Bascom Glob. Internet
Servs., Inc. v. AT&T Mobility LLC, 827 F.3d 1341,
1349 (Fed. Cir. 2016) (citing Alice, 134 S. Ct. at 2358).
Routine, conventional, or generic elements or combinations of elements do not satisfy the second step.
Alice, 134 S. Ct. at 2359 (claim steps requiring “electronic recordkeeping” and “use of a computer to obtain
data, adjust account balances, and issue automated
instructions” do “no more than require a generic computer to perform generic computer functions”). Similarly,
“claiming the improved speed or efficiency inherent
with applying the abstract idea on a computer
provide[s] a sufficient inventive concept” is not sufficient to meet the standards that apply to the step two
analysis. Intellectual Ventures I LLC v. Capital One
Bank (USA), 792 F.3d 1363, 1367 (Fed. Cir. 2015).

10a
B. Application
1. Representative Claim
Plaintiff has asserted 43 claims from the three
Asserted Patents. Defendants have identified Claim
53 of the ’698 Patent as representative. Claim 53
provides as follows:
A software method for employing a multichannel security system to control access to a
computer, comprising the steps of:
receiving in a first channel a login identification demand to access a host computer
also in the first channel;
verifying the login identification;
receiving at a security computer in a second
channel the demand for access and the
login identification;
outputting from the security computer a
prompt requesting a transmission of data;
receiving the transmitted data at the
security computer; comparing the transmitted data to predetermined data; and
depending on the comparison of the
transmitted and the predetermined data,
outputting an instruction from the security
computer to the host computer to grant
access to the host computer or deny access
thereto.
’698 Patent, Claim 53.
Plaintiff argues that Claim 53 is not representative
because it does not include an express “interception”
element that appears in “nearly every other claim.”
Dkt. 104 at 18 n.3. Because Plaintiff does not propose

11a
an alternative claim as representative and the interception element can be considered in conjunction with
the other components of the representative claim,
Claim 53 is used to frame the Alice inquiry.
2. Alice Step One
Plaintiff argues that the Asserted Claims address a
technology-specific problem by providing a technologyspecific solution. It then contends that, when the sequence
and combination of the claims of the Asserted Patents
are considered, a non-abstract invention is presented
that is patent eligible. Thus, it contends that the invention is directed to “a specific system for implementing
out-of-band authentication in a particular way . . . that
overcomes the problems faced in the prior art.” Dkt.
104 at 20.
In support of these positions, Plaintiff states that
the underlying claims “send[] a prompt for data using
the out-of-band channel and receive[] the user’s response
through the same channel.” Id. at 21 (emphasis in
original). As noted, Plaintiff argues that the “novel
arrangement” of the “interception element and separate channels for access and authentication” creates
an “improved ‘out-of-band’ security system” that is not
abstract. Id. at 19. Plaintiff describes this ordered
combination through the following sequential steps:
1. Separation of the access and authentication channels;
2. Interception of the login identification and
demand for access, which are routed to a
security computer in the second channel;
3. Initial verification of the user’s login
identification;

12a
4. Transmission of a prompt by the security
computer through a second, separate
transmission channel;
5. Receipt by the security computer of a
response through that same authentication channel; and
6. Transmission of an instruction from the
authentication channel (e.g., the security
computer) to the access channel (e.g., host
computer) to grant access to the user.
Id. at 19-20.
Plaintiff also contends that its invention provides a
novel solution to the growing threat of data hacking,
which presents a problem unique to computers. Thus,
“stolen credentials can be used by an undetected
hacker for extended periods, making large amounts of
data susceptible to theft and destruction.” Id. at 20.
Plaintiff adds that this problem was not widespread
prior to the growth in the use of computers on the
internet. Id.
Plaintiff adds that its invention is distinct from prior
out-of-band systems that would prompt a user for data
using the out-of-band channel and require the user
to transmit the requested data through the in-band
access channel. Plaintiff claims that its invention
sends a prompt for data using the out-of-band channel
and receives the user’s response through that same
channel so that the request and response occur outside
the access channel. Id. at 21. Plaintiff argues that this
design provides enhanced security by preventing the
type of hacking attacks to which prior art systems
were vulnerable. Id. Plaintiff argues that the claimed
two-channel solution is “necessarily rooted in computer technology in order to overcome a problem

13a
specifically arising in the realm of computer networks.”
Id. (quoting DDR Holdings, 773 F.3d at 1257).
Plaintiff also argues that the invention improves
existing technology and is not abstract. Thus, it claims
that the use of a separate channel to send and receive
authentication data is an improvement over the prior
art systems, which were vulnerable to online hacking.
Id. at 22. Plaintiff argues that the Asserted Patents’
specification overcame the “structural deficiencies” of
prior art in-band and out-of-band authentication systems that made them susceptible to hacking. Id.
Defendant argues that the Asserted Patents recite a
well-known method of organizing human activity to
address a problem that is not unique to computers or
online access. It contends that out-of-band authentication was used to transmit sensitive information well
before the advent of the internet and computers. Dkt.
106 at 10 (describing U.S. Navy tactics during World
War II and ancient Greek methods for decoding and
transmitting messages); Dkt. 88 at 7, 21-22 (describing
a system for verifying identity of visitors at preschool
that utilizes an “out-of-band” system). Defendant also
argues that the threat of large scale data theft, prolonged security breaches without detection and security
issues inherent to in-band authentication, are not
novel or technology-specific problems. Id.
Defendant also contends that the Asserted Patents
are directed simply to out-of-band authentication,
which is an abstract idea. In support of this position it
relies on Plaintiff’s prior admissions in this litigation,
in prior litigation and in its public disclosures.1
1

Plaintiff has stated that the “separate, out-of-band
authentication of the user is the essence of the invention.” Dkt.
89-1 at 16 (Parties’ Joint Claim Construction Brief, Strikeforce

14a
Defendant argues that these admissions establish that
the Asserted Patents are directed only to out-of-band
authentication. Dkt. 106 at 8; Dkt. 88 at 12.
Defendant next argues that Plaintiff’s list of the six
steps that are necessary is not an additional feature
of Plaintiff’s system, but a necessary element of any
out-of-band authentication process. Dkt. 106 at 8-9.
Defendant also responds to Plaintiff’s argument that
prior art out-of-band systems prompted a user for data
using the out-of-band channel, but then required the
user to transmit the requested data through the inband access channel. Dkt. 104 at 21. Defendant argues
that the “prompt for data” is not a necessary element
to all of the Asserted Claims, and that Claim 53 does
not specify the channel through which the prompt is
transmitted. See Dkt. 106 at 9.
Defendant also relies on Prism Technologies LLC v.
T-Mobile USA, Inc., 696 F. App’x 1014 (Fed. Cir. 2017).
Prism invalidated a patent relating to “systems and
methods that control access to protected computer
resources by authenticating identity data.” Id. at 1016.
In reaching this conclusion, the Federal Circuit
reviewed the following representative claim:
A method for controlling access, by at least
one authentication server, to protected computer resources provided via an Internet
Protocol network, the method comprising:

Technologies, Inc. v. PhoneFactor, Inc., No. 13-CV-00490-RGAMPT (D. Del. 2014)); see also Dkt. 36 at 7 (Plaintiff’s Opposition
to Motion to Transfer) (“As StrikeForce’s Complaint explains, the
patented inventions are directed to multichannel security
systems and methods for authenticating a user through ‘out-ofband’ authentication”).

15a
receiving, at the at least one authentication
server from at least one access server, identity data associated with at least one
client computer device, the identity data
forwarded to the at least one access server
from the at least one client computer device
with a request from the at least one client
computer device for the protected computer
resources;
authenticating, by the at least one authentication server, the identity data received
from the at least one access server, the
identity data being stored in the at least
one authentication server;
authorizing, by the at least one authentication server, the at least one client computer
device to receive at least a portion of the
protected computer resources requested by
the at least one client computer device, based
on data associated with the requested protected computer resources stored in at least
one database associated with the at least
one authentication server; and
permitting access, by the at least one
authentication server, to the at least the
portion of the protected computer resources
upon successfully authenticating the identity
data and upon successfully authorizing the
at least one client computer device.
Id. at 1016.
It its analysis of step one of Alice, the Federal Circuit
rejected the argument that “these claims cover a
concrete, specific solution to a real-world problem” and
instead concluded that the patents “are directed to the

16a
abstract idea of providing restricted access to resources.”
Id. at 1017. Specifically, those claims “are directed to
an abstract process that includes: (1) receiving identity data from a device with a request for access to
resources; (2) confirming the authenticity of the identity
data associated with that device; (3) determining
whether the device identified is authorized to access
the resources requested; and (4) if authorized, permitting access to the requested resources.” Id.
A consideration of the competing positions of the
parties shows that the Asserted Patents, like those at
issue in Prism, address an “abstract idea of providing
restricted access to resources.” Id. at 1017. They are
also “directed to a result or effect that . . . merely
invoke[s] generic processes and machinery” that are
not specific to computer technology. McRO, 837 F.3d
at 1314. Considering the Asserted Claims in light of
their “ordered combination” does not change this conclusion. Instead, the “ordered combination” on which
Plaintiff relies is nothing more than an obvious and
logical structure for the step-by-step process for
sending and receiving information through a system
that has an authenticating feature.
The Asserted Patents concern a long-established
means of transmitting sensitive information. Plaintiff
has not shown that they present ideas that are
distinct from any out-of-band authentication process.
A consideration of the existing in-band and out-ofband authentication systems and long-established,
non-computer-based methods for transmitting, processing and authenticating sensitive data shows that
the Asserted Claims are not specifically directed to an
improvement in computer functionality. Instead, they
simply apply these familiar processes in the context of

17a
the use of computers that are connected to the
internet. See Enfish, 822 F.3d at 1335.
3. Alice Step Two
Plaintiff concedes that some of the individual
elements that constitute the Asserted Claims were
known in prior art, but argues that, because their
ordered combination is unconventional, it is inventive.
See Dkt. 104 at 26-28. Thus, it contends that “the
ordered combination of the claim elements establishes
that the claims go beyond routine, fundamental practices and are a specific improvement over traditional
access control systems.” Id. at 26. In support of this
argument, Plaintiff relies on two recent decisions by
the Federal Circuit. The first, Amdocs (Israel) Ltd. v.
Openet Telecom, Inc., 841 F.3d 1288 (Fed. Cir. 2016),
considered a “system, method, and computer program
for merging data in a network-based filtering and
aggregating platform as well as a related apparatus
for enhancing networking accounting data records.”
Id. at 1291. Amdocs concluded that an inventive concept was shown because the term “enhance” was
“dependent upon the invention’s distributed architecture,” and that this “distributed enhancement was a
critical advancement over the prior art.” Id. at 1300.
Plaintiff argues that the use of separated channels
that permit access and authentication information to
be carried bi-directionally through separate facilities,
frequency channels or time slots constitutes an analogous advancement over prior art. Dkt. 104 at 27.
The second decision on which Plaintiff relies is
Bascom Glob. Internet Servs., Inc. v. AT&T Mobility
LLC, 827 F.3d 1341, 1349 (Fed. Cir. 2016). There, the
Federal Circuit found an inventive concept within a
“particular arrangement of elements” that were a
“technical improvement over prior art ways of filtering

18a
such content,” even though “[f]iltering content on the
internet was already a known concept.” Id. at 1350.
Bascom acknowledged that “an inventive concept
can be found in the non-conventional and non-generic
arrangement of known, conventional pieces.” Id. Plaintiff
argues that as to the Asserted Claims, authentication
was known in the prior art, but that the use of an
unconventional arrangement, i.e., having an out-ofband network outside the host computer’s network
that is used both to transmit and receive authentication information, is a technical improvement over prior
art that recites an inventive concept. Dkt. 104 at 28.
An ordered combination of conventional elements
may be inventive. However, as noted above, the ordered
combination of the Asserted Claims is logical and
conventional. Step 1 (separation of the access and
authentication channels) is a necessary starting point.
Step 2 (interception of the login identification and
demand for access) must also occur at the beginning of
the process because there must be some triggering
event. Thus, any attempt to access information must
occur prior to any responsive transmission of information. Step 3 (initial verification of the user’s login
identification) is the next logical step in this process
and is conventional. Until a user successfully inputs
this information, there is no need to verify that person’s
authenticity through the use of an out-of-band channel
because no access can be obtained without accurate
log in credentials. Step 4 (contacting the user through
the authentication channel) must precede Step 5
(receiving a response from the computer through the
authentication channel), which must precede Step 6
(communicating the results from the authentication
channel to the access channel).

19a
Although several of the Asserted Claims do not
include an “interception device,” Plaintiff nonetheless
suggests that this element and its placement within
the structure of the invention are inventive. However,
Plaintiff previously acknowledged in other litigation
that the interception device is simply “a device that
prevents the host computer from” receiving what the
interception device received. Dkt. 88 at 27. The
intended function of preventing access is an “abstract
functional description” that is insufficient to show an
inventive concept. In re TLI Commc’ns LLC Patent
Litig., 823 F.3d 607, 613-15 (Fed. Cir. 2016). Further,
the interception device performs the “purely functional and generic” role of a router. Alice, 134 S. Ct. at
2360. Thus, it simply receives information from one
channel and controls access to information in another.
For these reasons, the interception device does not
provide a computer-specific solution sufficient to satisfy
the second step in Alice. Id.
Prism also supports the conclusion that the Asserted
Patents fail under step two of Alice. As noted, Prism
concluded that authentication system patents were
“non-inventive because they recite generic computer
hardware running generic computer software that
performs the abstract functions routine to the process
of restricting access.” 696 F. App’x at 1017. Prism also
determined that “the asserted claims merely recite a
host of elements that are indisputably generic computer components.” Id. These included “authentication
server,” “access server,” “Internet Protocol network,”
“client computer device” and “database.” Id. Viewed in
context, the Asserted Patents are no different. They
recite what are “indisputably generic computer components.” See id. Similarly, the out-of-band authentication
“performs the abstract functions routine to the process
of restricting access.” Id.

20a
Although structuring an authentication so that it
has a bi-directional second channel for information
transmission could reflect some inventiveness, the
Asserted Patents do not meet the standard described
in Alice. That the channels recited in the Asserted
Claims need not be physically distinct, but only
separate “frequency channels” or “time slots” does
not reflect sufficient inventiveness. Dkt. 104 at 27.
Similarly, the interception element is similar to the
process for diverting identity data from the access
server to the authentication server that was addressed
and rejected in Prism.
IV. Conclusion
For the reasons stated in this Order, the Motion
is GRANTED with prejudice. Because it has been
determined that the Asserted Patents are invalid, the
challenge to the claims of willful infringement is
MOOT. In light of this ruling, the hearing scheduled
for December 11, 2017 and all other scheduled dates
are vacated. On or before December 11, 2017, and after
conferring with Plaintiff’s counsel to seek agreement
as to the form of a judgment, Defendant shall lodge a
proposed judgment that is consistent with this Order.
The notice of lodging shall include whether the form of
judgment is agreed upon or whether objections will be
filed in accordance with the Local Rules by December
18, 2017.
IT IS SO ORDERED.
_______:_______
Initials of Preparer

ak

21a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2017-1437
————
STEVEN E. BERKHEIMER,
Plaintiff-Appellant,
v.
HP INC., FKA HEWLETT-PACKARD COMPANY,
Defendant-Appellee.
————
Appeal from the United States District Court for the
Northern District of Illinois in
No. 1:12-cv-09023, Judge John Z. Lee.
————
Decided: February 8, 2018
————
JAMES P. HANRATH, Much Shelist, PC, Chicago, IL,
argued for plaintiff-appellant. Also represented by
MICHAEL JOHN FEMAL; PAUL SKIERMONT, Skiermont
Derby LLP, Dallas, TX.
WILLIAM R. PETERSON, Morgan, Lewis & Bockius LLP,
Houston, TX, argued for defendant-appellee. Also
represented by THOMAS R. DAVIS, DAVID JACK LEVY;
JASON C. WHITE, NICHOLAS A. RESTAURI, Chicago, IL.
————
Before MOORE, TARANTO, and STOLL, Circuit Judges.

22a
MOORE, Circuit Judge.
Steven E. Berkheimer appeals the United States
District Court for the Northern District of Illinois’
summary judgment holding claims 1–7 and 9 of U.S.
Patent No. 7,447,713 (’713 patent) invalid as ineligible
under 35 U.S.C. § 101. Mr. Berkheimer also appeals
the district court’s decision holding claims 10–19 of the
’713 patent invalid for indefiniteness. For the reasons
discussed below, we affirm-in-part, vacate-in-part,
and remand for further proceedings.
BACKGROUND
The ’713 patent relates to digitally processing and
archiving files in a digital asset management system.
’713 patent at 1:11–12. The system parses files into
multiple objects and tags the objects to create relationships between them. Id. at 1:13–18, 16:26–36. These
objects are analyzed and compared, either manually or
automatically, to archived objects to determine whether
variations exist based on predetermined standards
and rules. Id. at 13:14–20, 16:37–51. This system eliminates redundant storage of common text and graphical
elements, which improves system operating efficiency
and reduces storage costs. Id. at 2:53–55, 16:52–54.
The relationships between the objects within the archive
allow a user to “carry out a one-to-many editing process of object-oriented data,” in which a change to one
object carries over to all archived documents containing the same object. Id. at 15:65–16:2, 16:52–60.
Mr. Berkheimer sued HP Inc. in the Northern
District of Illinois, alleging infringement of claims 1–7
and 9–19 of the ’713 patent. Following a Markman
hearing, the district court concluded that the term
“archive exhibits minimal redundancy” in claim 10 is
indefinite and renders claim 10 and its dependents
invalid. HP moved for summary judgment that claims

23a
1–7 and 9 are patent ineligible under 35 U.S.C. § 101,
and the district court granted the motion. Mr.
Berkheimer appeals. We have jurisdiction under 28
U.S.C. § 1295(a)(1).
DISCUSSION
I. Indefiniteness
We review indefiniteness determinations de novo
except for necessary subsidiary fact findings, which we
review for clear error. Cox Commc’ns v. Sprint Commc’n
Co., 838 F.3d 1224, 1228 (Fed. Cir. 2016). Under 35
U.S.C. § 112, patent claims must “particularly point[]
out and distinctly claim[] the subject matter” regarded
as the invention. A lack of definiteness renders the
claims invalid. Nautilus, Inc. v. Biosig Instruments,
Inc., 134 S. Ct. 2120, 2125 (2014). Claims, viewed in
light of the specification and prosecution history, must
“inform those skilled in the art about the scope of the
invention with reasonable certainty.” Id. at 2129; see
Interval Licensing LLC v. AOL, Inc., 766 F.3d 1364,
1371 (Fed. Cir. 2014) (“The claims, when read in light
of the specification and the prosecution history, must
provide objective boundaries for those of skill in the
art.”). This standard “mandates clarity, while recognizing that absolute precision is unattainable.” Nautilus,
134 S. Ct. at 2129. “Claim language employing terms
of degree has long been found definite where it provided enough certainty to one of skill in the art when
read in the context of the invention.” Interval Licensing,
766 F.3d at 1370.
The district court analyzed the term “archive exhibits minimal redundancy” in claim 10 and determined
that the intrinsic evidence “leaves a person skilled in
the art with a highly subjective meaning of ‘minimal
redundancy.’” Berkheimer v. Hewlett-Packard Co.,
2015 WL 4999954, at *9–10 (N.D. Ill. Aug. 21, 2015).

24a
It relied on the declaration of HP’s expert, Dr. Schonfeld,
to find that an ordinarily skilled artisan would not
have known what the term “minimal redundancy”
meant in claim 10. Id. at *10. We hold that the district
court’s subsidiary factual finding based on Dr. Schonfeld’s
declaration was not clearly erroneous and affirm its
indefiniteness determination for claims 10–19.
We look first to the language of the claim to determine whether the meaning of “minimal redundancy”
is reasonably clear. Claim 10 recites “a storage medium,
and a set of executable instructions for establishing an
archive of documents represented by linked object
oriented elements stored in the medium, wherein the
archive exhibits minimal redundancy with at least
some elements linked to pluralities of the elements.”
Claims 11–19 depend from claim 10 and therefore
include the same limitation. This claim language is not
reasonably clear as to what level of redundancy in the
archive is acceptable.
The specification uses inconsistent terminology to
describe the level of redundancy that the system
achieves. For example, it describes “minimiz[ing] redundant objects,” ’713 patent at 16:50–51, “eliminating
redundancy,” id. at 16:52, and “reducing redundancies,” id. at 15:18–19. The only example included in the
specification is an archive that exhibits no redundancy. ’713 patent at 13:5–13. The claim language,
however, does not require elimination of all redundancies from the archive. For example, the specification
discloses providing users with “user interfaces and
tools for examining and choosing the elimination of
document and document element redundancies.” Id. at
6:60–65 (emphasis added). Indeed, Mr. Berkheimer
acknowledges that “the invention attempts to minimize redundancy but may not in all cases achieve

25a
absolute [elimination of] redundancy.” Appellant Br.
at 64. The specification contains no point of comparison for skilled artisans to determine an objective
boundary of “minimal” when the archive includes some
redundancies. Sonix Tech. Co., Ltd. v. Publ’ns Int’l,
Ltd., 844 F.3d 1370, 1379 (Fed. Cir. 2017) (holding
that specific examples in the specification provided
“points of comparison” that helped form an objective
standard of the claim’s scope).
The prosecution history does not add clarity. In
response to an indefiniteness rejection during prosecution, Mr. Berkheimer explained that the claim “desires
to eliminate redundancy” but includes the word “minimal” because “to eliminate all redundancy in the field
of the claimed invention is not likely.” J.A. 656. This
does not explain how much redundancy is permitted.
In light of the lack of objective boundary or specific
examples of what constitutes “minimal” in the claims,
specification, and prosecution history, the district court
properly considered and relied on extrinsic evidence.
Relying on the specification’s lack of explanation and
specific examples of this term, HP’s expert Dr. Schonfeld
opined that the patent does not inform a skilled artisan
of the meaning of “archive exhibits minimal redundancy” with reasonable certainty. Mr. Berkheimer did
not provide the court with expert testimony of his own.
While Dr. Schonfeld’s explanation for his opinion was
brief, it was not clear error for the district court to find
that a skilled artisan would not have known the meaning of “minimal redundancy” with reasonable certainty.
Mr. Berkheimer’s argument that “the archive” provides an objective baseline to measure what exhibits
“minimal redundancy” misses the point. He is correct
that it is “the archive” that must exhibit “minimal
redundancy,” but the issue is not what must exhibit

26a
minimal redundancy, but rather how much is minimal. Mr. Berkheimer’s only arguments on this point
are that terms of degree are not required to have
an objective boundary and a contrary holding would
invalidate a large swath of patents relying on terms of
degree such as “minimal” or “substantial.” Our case
law is clear that the objective boundaries requirement
applies to terms of degree. In Sonix, we held that the
term “visually negligible” had an objective baseline to
interpret the claims. 844 F.3d at 1378. In Interval
Licensing, we held that the phrase “unobtrusive manner” lacked objective boundaries. 766 F.3d at 1371. We
do not hold that all terms of degree are indefinite. We
only hold that the term “minimal redundancy” is indefinite in light of the evidence in this case.
Accordingly, we affirm the district court’s determination that claims 10–19 are invalid as indefinite.
II. Patent Eligibility
In patent appeals, we apply the law of the regional
circuit, here the Seventh Circuit, to issues not unique
to patent law. AbbVie Deutschland GmbH & Co., KG
v. Janssen Biotech, Inc., 759 F.3d 1285, 1295 (Fed. Cir.
2014). The Seventh Circuit reviews a grant of summary
judgment de novo, drawing all reasonable inferences
in the light most favorable to the non-movant. Arnett
v. Webster, 658 F.3d 742, 757 (7th Cir. 2011). Summary
judgment is appropriate when “there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” FED. R. CIV. P. 56(a).
Patent eligibility under 35 U.S.C. § 101 is ultimately
an issue of law we review de novo. Intellectual Ventures
I LLC v. Capital One Fin. Corp., 850 F.3d 1332, 1338
(Fed. Cir. 2017). The patent eligibility inquiry may
contain underlying issues of fact. Mortg. Grader, Inc.
v. First Choice Loan Servs. Inc., 811 F.3d 1314, 1325

27a
(Fed. Cir. 2016).
First, we address whether Mr. Berkheimer waived
his ability to argue that the dependent claims are
separately patent eligible. Courts may treat a claim as
representative in certain situations, such as if the
patentee does not present any meaningful argument
for the distinctive significance of any claim limitations
not found in the representative claim or if the parties
agree to treat a claim as representative. Elec. Power
Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1352 (Fed.
Cir. 2016); Intellectual Ventures I LLC v. Symantec
Corp., 838 F.3d 1307, 1316 & n.9 (Fed. Cir. 2016).
Because Mr. Berkheimer maintained that limitations
included in dependent claims 4–7 bear on patent eligibility and never agreed to make claim 1 representative,
we hold that arguments going specifically to claims 4–
7 are properly preserved on appeal.
Mr. Berkheimer never agreed to make claim 1
representative. In his opposition brief to HP’s motion
for summary judgment, he argued that claim 1 is
not representative of the limitations found in the
dependent claims. J.A. 1280. In particular, he argued
that limitations in claim 5 drawn to effecting a one-tomany change add inventive concepts. Id. Other portions
of his brief below argued that reducing redundancy
and enabling one-to-many editing are patent eligible
concepts. See, e.g., J.A. 1278 (“The innovative aspects
of the claims improve computerized digital asset and
content management systems by enabling control of
object and object relationship integrity, reducing redundancy, [and] linking objects to enable one to many
editing . . . . Such improvements to computer functionality are precisely the kind of improvements that have
been found patent eligible under Alice.” (internal citations omitted)). Because claim 1 does not recite reduc-

28a
ing redundancy or enabling one-to-many editing, we
interpret these arguments as applying to dependent
claims 4–7, which include these limitations. Mr.
Berkheimer makes these same arguments to us on
appeal.
The district court stated that it was treating claim 1
as representative because claim 1 is the only asserted
independent claim and Mr. Berkheimer focused “all
of his primary arguments” on claim 1.1 Berkheimer v.
Hewlett-Packard Co., 224 F. Supp. 3d 635, 643 n.6
(N.D. Ill. Dec. 12, 2016). Neither rationale justifies
treating claim 1 as representative. A claim is not representative simply because it is an independent claim.
Indeed, Mr. Berkheimer advanced meaningful arguments regarding limitations found only in the dependent
claims. In acknowledging that Mr. Berkheimer focused
his “primary arguments” on claim 1, the district court
necessarily recognized that he raised arguments regarding the dependent claims. Thus, Mr. Berkheimer’s
separate arguments regarding claims 4–7 are not waived.
Turning to the merits of the § 101 inquiry, anyone
who “invents or discovers any new and useful process,
machine, manufacture, or composition of matter, or
any new and useful improvement thereof” may obtain
a patent. 35 U.S.C. § 101. Because patent protection
does not extend to claims that monopolize the “building blocks of human ingenuity,” claims directed to
laws of nature, natural phenomena, and abstract ideas
are not patent eligible. Alice Corp. Pty. Ltd. v. CLS
Bank Int’l, 134 S. Ct. 2347, 2354 (2014). The Supreme
Court instructs courts to distinguish between claims
that claim patent ineligible subject matter and those
1

Though the district court stated it was treating claim 1 as
representative, it separately analyzed the dependent claims.

29a
that “integrate the building blocks into something
more.” Id. “First, we determine whether the claims at
issue are directed to” a patent-ineligible concept. Id. at
2355. If so, “we consider the elements of each claim
both individually and ‘as an ordered combination’ to
determine whether the additional elements ‘transform
the nature of the claim’ into a patent-eligible
application.” Id. (quoting Mayo Collaborative Servs. v.
Prometheus Labs., Inc., 566 U.S. 66, 78–79 (2012)).
Independent claim 1 recites:
1. A method of archiving an item in a
computer processing system comprising:
presenting the item to a parser;
parsing the item into a plurality of multipart object structures wherein portions of
the structures have searchable information
tags associated therewith;
evaluating the object structures in accordance with object structures previously stored
in an archive;
presenting an evaluated object structure
for manual reconciliation at least where
there is a predetermined variance between
the object and at least one of a predetermined standard and a user defined rule.
The district court construed “parser” as “a program
that dissects and converts source code into object code”
and “parsing” as using such a program. J.A. 47. It
construed “evaluating the object structures in accordance with object structures previously stored in
an archive” as “analyzing the plurality of multi-part
object structures obtained by parsing and comparing
it with object structures previously stored in the

30a
archive to determine if there is variance between the
object and at least one of a predetermined standard
and a user defined rule.” Id. These constructions are
not challenged on appeal.
At Alice step one, we must “determine whether the
claims at issue are directed to a patent-ineligible concept.” Alice, 134 S. Ct. at 2355. The district court held
claim 1 is directed to the abstract idea of “using a
generic computer to collect, organize, compare, and
present data for reconciliation prior to archiving.”
Berkheimer, 224 F. Supp. 3d at 644. Mr. Berkheimer
argues the district court characterized the invention
too broadly and simplistically, ignoring the core
features of the claims. We hold that claims 1–3 and 9
are directed to the abstract idea of parsing and
comparing data; claim 4 is directed to the abstract idea
of parsing, comparing, and storing data; and claims
5–7 are directed to the abstract idea of parsing,
comparing, storing, and editing data.
These claims are similar to claims we held directed
to an abstract idea in prior cases. See, e.g., In re TLI
Commc’ns LLC Patent Litig., 823 F.3d 607, 613 (Fed.
Cir. 2016); Content Extraction & Transmission LLC v.
Wells Fargo Bank, Nat’l Ass’n, 776 F.3d 1343, 1347
(Fed. Cir. 2014). In Content Extraction, the claims at
issue generally recited “a method of 1) extracting data
from hard copy documents using an automated digitizing unit such as a scanner, 2) recognizing specific
information from the extracted data, and 3) storing
that information in a memory.” 776 F.3d at 1345. We
held those claims were directed to the abstract idea
of “1) collecting data, 2) recognizing certain data within the collected data set, and 3) storing that recognized
data in a memory.” Id. at 1347. Similarly, in TLI, the
claims recited a “method for recording and administer-

31a
ing digital images,” which involved “recording images
using a digital pick up unit in a telephone unit,”
digitally storing them, transmitting the digital images
and classification information to a server, and storing
the digital images in the server based on the classification information. 823 F.3d at 610. We held the claim
at issue used only conventional computer components
to implement the abstract idea of “classifying and
storing digital images in an organized manner.” Id. at
613. Here, the specification explains that the parser
“determines and extracts components of the standardized document or item representation” and reassembles the components “into composite output files.” ’713
patent at 3:61–4:17. Even though the parser separates
the documents or items into smaller components than
the claims determined to be abstract in Content
Extraction and TLI, the concept is the same. The
parsing and comparing of claims 1–3 and 9 are similar
to the collecting and recognizing of Content Extraction,
776 F.3d at 1347, and the classifying in an organized
manner of TLI, 823 F.3d at 613. Claim 4 adds the
abstract concept of storing, and claims 5–7 add the
abstract concept of editing.
Mr. Berkheimer argues that the claims are not
abstract because the “parsing” limitation roots the
claims in technology and transforms the data structure from source code to object code. Limiting the
invention to a technological environment does “not
make an abstract concept any less abstract under step
one.” Intellectual Ventures I, 850 F.3d at 1340. That
the parser transforms data from source to object code
does not demonstrate non-abstractness without evidence
that this transformation improves computer functionality in some way. See Visual Memory LLC v.
NVIDIA Corp., 867 F.3d 1253, 1258 (Fed. Cir. 2017)
(“[W]e must . . . ask whether the claims are directed to

32a
an improvement to computer functionality versus
being directed to an abstract idea.” (internal quotations omitted)); Enfish, LLC v. Microsoft Corp., 822
F.3d 1327, 1335–36 (Fed. Cir. 2016) (“[T]he first step
in the Alice inquiry in this case asks whether the focus
of the claims [was] on the specific asserted improvement in computer capabilities . . . or, instead, on a
process that qualifies as an ‘abstract idea’ for which
computers are invoked merely as a tool.”). No such
evidence exists on this record. Indeed, Mr. Berkheimer
admitted that parsers had existed for years prior to his
patent. J.A. 1106. Because the claims are directed to
an abstract idea, we proceed to the second step of the
Alice inquiry.
At step two, we “consider the elements of each claim
both individually and ‘as an ordered combination’ to
determine whether the additional elements ‘transform
the nature of the claim’ into a patent eligible application.” Alice, 134 S. Ct. at 2355 (quoting Mayo, 566 U.S.
at 78–79). The second step of the Alice test is satisfied
when the claim limitations “involve more than performance of ‘well-understood, routine, [and] conventional
activities previously known to the industry.’” Content
Extraction, 776 F.3d at 1347–48 (quoting Alice, 134 S.
Ct. at 2359).
The question of whether a claim element or combination of elements is well-understood, routine and
conventional to a skilled artisan in the relevant field
is a question of fact. Any fact, such as this one, that is
pertinent to the invalidity conclusion must be proven
by clear and convincing evidence. See Microsoft Corp.
v. i4i Ltd. P’ship, 564 U.S. 91, 95 (2011). Like indefiniteness, enablement, or obviousness, whether a claim
recites patent eligible subject matter is a question of
law which may contain underlying facts. Akzo Nobel

33a
Coatings, Inc. v. Dow Chem. Co., 811 F.3d 1334, 1343
(Fed. Cir. 2016) (“Indefiniteness is a question of law
that we review de novo, [] subject to a determination
of underlying facts.”); Alcon Research Ltd. v. Barr
Labs., Inc., 745 F.3d 1180, 1188 (Fed. Cir. 2014)
(“Whether a claim satisfies the enablement requirement of 35 U.S.C. § 112 is a question of law that we
review without deference, although the determination
may be based on underlying factual findings, which we
review for clear error.”); Apple Inc. v. Samsung Elecs.
Co., Ltd., 839 F.3d 1034, 1047 (Fed. Cir. 2016) (en
banc) (“Obviousness is a question of law based on
underlying facts.”). We have previously stated that
“[t]he § 101 inquiry ‘may contain underlying factual
issues.’” Mortg. Grader, 811 F.3d at 1325 (emphasis in
original) (quoting Accenture Global Servs., GmbH v.
Guidewire Software, Inc., 728 F.3d 1336, 1341 (Fed.
Cir. 2013)). And the Supreme Court recognized that in
making the § 101 determination, the inquiry “might
sometimes overlap” with other fact-intensive inquiries
like novelty under § 102. Mayo, 566 U.S. at 90.
As our cases demonstrate, not every § 101 determination contains genuine disputes over the underlying
facts material to the § 101 inquiry. See, e.g., Content
Extraction, 776 F.3d at 1349 (patent owner conceded
the argued inventive concept “was a routine function
of scanning technology at the time the claims were
filed”); Intellectual Ventures I LLC v. Capital One
Bank (USA), 792 F.3d 1363, 1370 (Fed. Cir. 2015)
(patent owner argued an “interactive interface” is “a
specific application of the abstract idea that provides
an inventive concept” and did not dispute that the
computer interface was generic). Whether a claim
recites patent eligible subject matter is a question of
law which may contain disputes over underlying facts.
Patent eligibility has in many cases been resolved on

34a
motions to dismiss or summary judgment. Nothing in
this decision should be viewed as casting doubt on the
propriety of those cases. When there is no genuine
issue of material fact regarding whether the claim
element or claimed combination is well-understood,
routine, conventional to a skilled artisan in the relevant field, this issue can be decided on summary
judgment as a matter of law.
Here, the district court concluded that the claims
do not contain an inventive concept under Alice step
two because they describe “steps that employ only
‘well-understood, routine, and conventional’ computer
functions” and are claimed “at a relatively high level
of generality.” Berkheimer, 224 F. Supp. 3d at 647–48
(quoting Content Extraction, 776 F.3d at 1348). Mr.
Berkheimer argues portions of the specification referring to reducing redundancy and enabling one-tomany editing contradict the district court’s finding
that the claims describe well-understood, routine, and
conventional activities. He argues, both below and on
appeal, that summary judgment is improper because
whether the claimed invention is well-understood,
routine, and conventional is an underlying fact
question for which HP offered no evidence.
While patent eligibility is ultimately a question of
law, the district court erred in concluding there are no
underlying factual questions to the § 101 inquiry. Id.
at 642. Whether something is well-understood, routine,
and conventional to a skilled artisan at the time of the
patent is a factual determination. Whether a particular
technology is well-understood, routine, and conventional goes beyond what was simply known in the prior
art. The mere fact that something is disclosed in a
piece of prior art, for example, does not mean it was
well-understood, routine, and conventional.

35a
Mr. Berkheimer argues that the claimed combination improves computer functionality through the
elimination of redundancy and the one-to-many editing
feature, which provides inventive concepts. The specification of the ’713 patent discusses the state of the art
at the time the patent was filed and the purported
improvements of the invention. Conventional digital
asset management systems at the time included
“numerous documents containing multiple instances
of redundant document elements.” ’713 patent at 1:24–
27. This redundancy in conventional systems led to
“inefficiencies and increased costs.” Id. at 2:22–26. The
specification explains that the claimed improvement
increases efficiency and computer functionality over
the prior art systems:
By eliminating redundancy in the archive 14,
system operating efficiency will be improved,
storage costs will be reduced and a one-tomany editing process can be implemented
wherein a singular linked object, common to
many documents or files, can be edited once
and have the consequence of the editing
process propagate through all of the linked
documents and files. The one-to-many editing
capability substantially reduces effort needed
to up-date files which represent packages or
packaging manuals or the like as would be
understood by those of skill in the art.
Id. at 16:52–60.
The specification describes an inventive feature that
stores parsed data in a purportedly unconventional
manner. This eliminates redundancies, improves
system efficiency, reduces storage requirements, and
enables a single edit to a stored object to propagate
throughout all documents linked to that object. Id.

36a
The improvements in the specification, to the extent
they are captured in the claims, create a factual
dispute regarding whether the invention describes
well-understood, routine, and conventional activities,
see Content Extraction, 776 F.3d at 1347–48, so we
must analyze the asserted claims and determine
whether they capture these improvements, Alice, 134
S. Ct. at 2357.
The parties dispute whether these improvements to
computer functionality are captured in the claims. See
Appellant Br. at 42; Appellee Br. at 39–40, 43–44. We
conclude that claim 1 does not recite an inventive
concept sufficient to transform the abstract idea into a
patent eligible application. Claim 1 recites a method
of archiving including parsing data, analyzing and
comparing the data to previously stored data, and
presenting the data for reconciliation when there is a
variance. It does not include limitations which incorporate eliminating redundancy of stored object structures
or effecting a one-to-many change of linked documents
within an archive. It does not even require the storage
of data after it is presented for manual reconciliation.
Thus, it does not recite any of the purportedly unconventional activities disclosed in the specification. Mr.
Berkheimer does not advance any separate arguments
regarding claims 2–3 and 9. Even considering these
claims separately, they recite patent ineligible subject
matter for the same reason.
Mr. Berkheimer argues that claim 1 recites an
improvement to computer functionality and digital
asset management systems. Mr. Berkheimer, however,
admitted that parsers and the functions they perform
existed for years before his patent. J.A. 1106. These
conventional limitations of claim 1, combined with
limitations of analyzing and comparing data and

37a
reconciling differences between the data, “fail to
transform th[e] abstract idea into a patent-eligible
invention.” Alice, 134 S. Ct. at 1357. The limitations
amount to no more than performing the abstract idea
of parsing and comparing data with conventional
computer components. Because claims 1–3 and 9 do
not capture the purportedly inventive concepts, we
hold that claims 1–3 and 9 are ineligible.
Claims 4–7, in contrast, contain limitations directed
to the arguably unconventional inventive concept
described in the specification. Claim 4 recites “storing
a reconciled object structure in the archive without
substantial redundancy.” The specification states
that storing object structures in the archive without
substantial redundancy improves system operating
efficiency and reduces storage costs. ’713 patent at
16:52–58. It also states that known asset management
systems did not archive documents in this manner. Id.
at 2:22–26. Claim 5 depends on claim 4 and further
recites “selectively editing an object structure, linked
to other structures to thereby effect a one-to-many
change in a plurality of archived items.” The specification states one-to-many editing substantially reduces
effort needed to update files because a single edit can
update every document in the archive linked to that
object structure. Id at 16:58–60. This one-to-many
functionality is more than “editing data in a straightforward copy-and-paste fashion,” as characterized by
the district court. Berkheimer, 224 F. Supp. 3d at 645.
According to the specification, conventional digital
asset management systems cannot perform one-to-many
editing because they store documents with numerous
instances of redundant elements, rather than eliminate
redundancies through the storage of linked object
structures. ’713 patent at 1:22–55, 4:4–9, 16:52–60.
Claims 6–7 depend from claim 5 and accordingly

38a
contain the same limitations. These claims recite a
specific method of archiving that, according to the
specification, provides benefits that improve computer
functionality.
HP argues that redundancy and efficiency are
considerations in any archival system, including paperbased systems. The district court agreed. Berkheimer,
224 F. Supp. 3d at 647. At this stage of the case,
however, there is at least a genuine issue of material
fact in light of the specification regarding whether
claims 4–7 archive documents in an inventive manner
that improves these aspects of the disclosed archival
system. Whether claims 4–7 perform well-understood,
routine, and conventional activities to a skilled artisan
is a genuine issue of material fact making summary
judgment inappropriate with respect to these claims.
We do not decide today that claims 4–7 are patent
eligible under § 101. We only decide that on this record
summary judgment was improper, given the fact
questions created by the specification’s disclosure.
CONCLUSION
For the foregoing reasons, we affirm the district
court’s decision that claims 10–19 of the ’713 patent
are invalid as indefinite and its grant of summary
judgment that claims 1–3 and 9 of the ’713 patent are
ineligible under 35 U.S.C. § 101. We vacate the district
court’s grant of summary judgment that claims 4–7
are ineligible under § 101 and remand for further
proceedings.
AFFIRMED-IN-PART, VACATED-IN-PART,
AND REMANDED
COSTS
No costs.

39a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2017-1437
————
STEVEN E. BERKHEIMER,
Plaintiff-Appellant,
v.
HP INC., FKA HEWLETT-PACKARD COMPANY,
Defendant-Appellee.
————
Appeal from the United States District Court for the
Northern District of Illinois in
No. 1:12-cv-09023, Judge John Z. Lee.
————
ON PETITION FOR REHEARING EN BANC
————
JAMES P. HANRATH, Much Shelist, PC, Chicago, IL,
filed a response to the petition for plaintiff-appellant.
Also represented by MICHAEL JOHN FEMAL; PAUL
SKIERMONT, Skiermont Derby LLP, Dallas, TX.
JASON C. WHITE, Morgan, Lewis & Bockius LLP,
Chicago, IL, filed a petition for rehearing en banc for
defendant-appellee. Also represented by NICHOLAS A.
RESTAURI; THOMAS R. DAVIS, DAVID JACK LEVY, WILLIAM
R. PETERSON, Houston, TX; ALLYSON NEWTON HO,
Dallas, TX; JULIE S. GOLDEMBERG, Philadelphia, PA.

40a
MARK ANDREW PERRY, Gibson, Dunn & Crutcher LLP,
Washington, DC, for amicus curiae T-Mobile USA, Inc.
Also represented by BRIAN BUROKER; ALEXANDER
N. HARRIS, San Francisco, CA; JOSH KREVITT, New
York, NY.
DAVID EVAN FINKELSON, McGuireWoods LLP, Richmond,
VA, for amici curiae Sprint Spectrum LP, Cellco
Partnership. Also represented by MATTHEW ALLEN
FITZGERALD, BRIAN DAVID SCHMALZBACH.
DANIEL K. NAZER, Electronic Frontier Foundation, San
Francisco, CA, for amici curiae Electronic Frontier
Foundation, R Street Institute. Also represented by
CHARLES DUAN, R Street Institute, Washington, DC.
DARYL JOSEFFER, King & Spalding LLP, Washington,
DC, for amici curiae The Internet Association,
Computer and Communications Industry Association,
High Tech Inventors Alliance. Also represented by
PAUL ALESSIO MEZZINA, JESSE D.H. SNYDER.
————
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
MOORE, Circuit Judge, with whom DYK, O’MALLEY,
TARANTO, and STOLL, Circuit Judges, join, concurs in
the denial of the petition for rehearing en banc.
LOURIE, Circuit Judge, with whom NEWMAN, Circuit
Judge, joins, concurs in the denial of the petition for
rehearing en banc.
REYNA, Circuit Judge, dissents from the denial of the
petition for rehearing en banc.
PER CURIAM.

41a
ORDER
Appellee HP Inc. filed a petition for rehearing en
banc. A response to the petition was invited by the
court and filed by Appellant Steven E. Berkheimer.
Several motions for leave to file amici curiae briefs
were also filed and granted. The petition, response,
and amici curiae briefs were first referred to the panel
that heard the appeal, and thereafter, to the circuit
judges who are in regular active service. A poll was
requested, taken, and failed.
Upon consideration thereof,
IT IS ORDERED THAT:
1. The petition for panel rehearing is denied.
2. The petition for rehearing en banc is denied.
3. The mandate of the court will issue on June 7,
2018.
FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
May 31, 2018
Date

42a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2017-1437
————
STEVEN E. BERKHEIMER,
Plaintiff-Appellant,
v.
HP INC., FKA HEWLETT-PACKARD COMPANY,
Defendant-Appellee.
————
Appeal from the United States District Court for the
Northern District of Illinois in
No. 1:12-cv-09023, Judge John Z. Lee.
————
MOORE, Circuit Judge, with whom DYK, O’MALLEY,
TARANTO, and STOLL, Circuit Judges, join, concurring
in the denial of the petition for rehearing en banc.
Berkheimer and Aatrix stand for the unremarkable
proposition that whether a claim element or combination of elements would have been well-understood,
routine, and conventional to a skilled artisan in the
relevant field at a particular point in time is a question
of fact. The Supreme Court has described historical
facts as “a recital of external events.” Thompson v.
Keohane, 516 U.S. 99, 110 (1995). In other words, facts
relating to “who did what, when or where, how or
why.” U.S. Bank Nat’l Ass’n ex rel. CWCapital Asset
Mgmt. LLC v. The Village at Lakeridge, LLC, 138 S.
Ct. 960, 966 (2018).

43a
Whether a claim element or combination of elements would have been well-understood, routine, and
conventional to a skilled artisan in the relevant field
at a particular point in time may require “weigh[ing]
evidence,” “mak[ing] credibility judgments,” and addressing “narrow facts that utterly resist generalization.”
Id. at 967 (quoting Pierce v. Underwood, 487 U.S. 552,
561–62 (1988)). The Supreme Court in Alice asked
whether the claimed activities were “previously known
to the industry,” and in Mayo asked whether they were
“previously engaged in by researchers in the field.”1
Alice Corp. Pty. v. CLS Bank Int’l, 134 S. Ct. 2347,
2359 (2014); Mayo Collaborative Servs. v. Prometheus
Labs., Inc., 566 U.S. 66, 73 (2012). Indeed, the Court
recognized that “in evaluating the significance of
additional steps, the § 101 patent-eligibility inquiry
and, say, the § 102 novelty inquiry might sometimes
overlap.” Mayo, 566 U.S. at 90. “[C]ase law from the
Supreme Court and this court has stated for decades
that anticipation is a factual question.” Microsoft
Corp. v. Biscotti, Inc., 878 F.3d 1052, 1068 (Fed. Cir.
2017). While the ultimate question of patent eligibility
is one of law, it is not surprising that it may contain
underlying issues of fact. Every other type of validity
challenge is either entirely factual (e.g., anticipation,
1

It has been suggested that contrary to these pronouncements
by the Supreme Court, whether claim limitations involve wellunderstood, routine, and conventional activities should not be
assessed from the perspective of a person of ordinary skill in the
art. The alternative is unclear, the reasonable judge? Such a
conclusion would be at odds with all patentability questions,
which are assessed from the perspective of the ordinarily skilled
artisan. It would be bizarre, indeed, if we assessed the question
from the perspective of a jurist because for much of the technology
we encounter, very little would be well-understood, routine, and
conventional to the jurist.

44a
written description, utility), a question of law with
underlying facts (e.g., obviousness, enablement), or a
question of law that may contain underlying facts (e.g.,
indefiniteness).2
This question may require weighing evidence to
determine whether the additional limitations beyond
the abstract idea, natural phenomenon, or law of
nature would have been well-understood, routine, and
conventional to an ordinarily skilled artisan. Because
the patent challenger bears the burden of demonstrating that the claims lack patent eligibility, 35 U.S.C.
§ 282(a), there must be evidence supporting a finding
that the additional elements were well-understood,
routine, and conventional. Relying on the specification
alone may be appropriate where, as in Mayo, the
specification admits as much. 566 U.S. at 79; see also
id. at 73–74. In Mayo, the Court considered disclosures
in the specification of the patent about the claimed
techniques being “routinely” used and “well known in
the art.” Id. at 73–74, 79. Based on these disclosures,
the Court held that “any additional steps [beyond
the law of nature] consist of well-understood, routine,
conventional activity already engaged in by the scientific community” that “add nothing significant beyond
the sum of their parts taken separately.” Id. at 79–80.
2

It would be odd to suggest that § 101 is not an invalidity
challenge. It falls under Part II, Chapter 10 of the Patent Act
entitled Patentability of Inventions. It sits alongside §§ 102, 103
and 112, which likewise articulate validity concerns. Moreover,
the single sentence in § 101 actually contains two patentability
requirements: eligibility and utility. Both have long been treated
by courts as questions of validity. See, e.g., Internet Patents Corp.
v. Active Network, Inc., 790 F.3d 1343, 1349 (Fed. Cir. 2015); DDR
Holdings, LLC v. Hotels.com, L.P., 773 F.3d 1245, 1259 (Fed. Cir.
2014); Juicy Whip, Inc. v. Orange Bang, Inc., 185 F.3d 1364, 1367
(Fed. Cir. 1999).

45a
In a situation where the specification admits the additional claim elements are well-understood, routine,
and conventional, it will be difficult, if not impossible,
for a patentee to show a genuine dispute. Cf. Pharmastem
Therapeutics, Inc. v. ViaCell, Inc., 491 F.3d 1342,
1362 (Fed. Cir. 2007) (stating that “[a]dmissions in the
specification regarding the prior art are binding on
the patentee for purposes of a later inquiry into
obviousness”).3
As this is a factual question, the normal procedural
standards for fact questions must apply, including the
rules in the Federal Rules of Civil Procedure applicable to motions to dismiss or for summary judgment
and the standards in the Federal Rules of Evidence for
admissions and judicial notice. See SCA Hygiene
Prods. Aktiebolag v. First Quality Baby Prods., LLC,
137 S. Ct. 954, 964 (2017) (stating that “the same
common-law principles, methods of statutory interpretation, and procedural rules as other areas of civil
litigation” also govern patent law). Though we are a
court of special jurisdiction, we are not free to create
specialized rules for patent law that contradict wellestablished, general legal principles. See Teva, 135 S.
Ct. at 840; Highmark Inc. v. Allcare Health Mgmt.
Sys., Inc., 134 S. Ct. 1744, 1748–49 (2014); eBay Inc. v.
MercExchange, LLC, 547 U.S. 388, 393–94 (2006).
If there is a genuine dispute of material fact, Rule
56 requires that summary judgment be denied. In
3

When claim construction is limited to the intrinsic evidence,
we review it de novo. Teva Pharm. USA, Inc. v. Sandoz, Inc., 135
S. Ct. 831, 841 (2015). However, construing claims in light of the
specification differs from determining whether claim limitations
recite activities that were well-understood, routine, and conventional in the relevant field at a particular point in time. The latter
is a question of historical fact, not a legal question of claim scope.

46a
Berkheimer, there was such a genuine dispute for
claims 4–7, but not for claims 1–3 and 9. Berkheimer
v. HP Inc., 881 F.3d 1360, 1370 (Fed. Cir. 2018). The
specification described the increases in efficiency and
computer functionality that the invention, in claims
4–7, had over conventional digital asset management
systems. Id. at 1369 (citing U.S. Patent No. 7,447,713
at 1:24–27, 2:22–26, 16:52–60). It further stated that
“known asset management systems” did not contain
the one-to-many claim element and its advantages,
’713 patent at 2:23–26, and that redundant document
images “are the convention” in “today’s digital asset
management systems,” id. at 1:24–27. While assertions in the patent will not always be enough to create
a genuine dispute of material fact, they did so here.
HP’s evidence focused almost exclusively on the limitations of claim 1. See J.A. at 1054–62, Berkheimer,
881 F.3d 1360. Its only evidence that addressed the
additional limitations in claims 4–7 was the conclusory statement from its expert’s declaration that the
features disclosed and claimed in the ’713 patent,
including one-to-many changes, “were known functions
at the time the application was filed” and “[w]hen
combined into a single computerized system, these
known features perform[ed] the exact same functions
to yield predictable results.” Id. at 1061. This evidence
did not address whether the additional limitations
were well understood, routine, and conventional. Based
on this evidence, HP fell short of establishing that it
was entitled to summary judgment that claims 4–7 are
ineligible, a defense it bore the burden of proving. 35
U.S.C. § 282(a). Indeed, beyond its expert’s conclusory
declaration, HP could point to no evidence in the
record contradicting the statements from the specification. Applying the standard for summary judgment in
Rule 56, as we must, summary judgment had to be

47a
denied as to claims 4–7. Because no genuine issue of
fact existed for claims 1–3 and 9, we affirmed the grant
of summary judgment that those claims were not
eligible. As with claims 1–3 and 9, when the evidence
that aspects of the invention are not well-understood,
routine, and conventional does not pertain to the invention as claimed, it will not create a factual dispute as
to these claims. See also Mortg. Grader, Inc. v. First
Choice Loan Servs. Inc., 811 F.3d 1314, 1326 (Fed. Cir.
2016) (expert testimony about problems solved by the
invention does not create a genuine dispute of material
fact when “the claims do not actually contain the
‘conflict-free requirement’”); Intellectual Ventures I
LLC v. Symantec Corp., 838 F.3d 1307, 1321–22 (Fed.
Cir. 2016) (when technological details or particular
features set forth in other claims that incorporate an
inventive concept are not present in the claims at issue
they cannot create a question of fact as to these claims).
If patent eligibility is challenged in a motion to
dismiss for failure to state a claim pursuant to Rule
12(b)(6), we must apply the well-settled Rule 12(b)(6)
standard which is consistently applied in every area of
law. A motion to dismiss for failure to state a claim
must be denied if “in the light most favorable to the
plaintiff and with every doubt resolved in the pleader’s
favor—but disregarding mere conclusory statements—
the complaint states any legally cognizable claim for
relief.” 5B Charles Alan Wright & Arthur R. Miller,
Federal Practice and Procedure § 1357 (3d ed. 2018).
In the Eleventh Circuit, the Rule 12(b)(6) standard
requires accepting as true the complaint’s factual allegations and construing them in the light most favorable
to the plaintiff. Aatrix Software, Inc. v. Green Shades
Software, Inc., 882 F.3d 1121, 1124 (Fed. Cir. 2018)
(citing Speaker v. U.S. Dep’t of Health & Human Servs.
Ctrs. for Disease Control & Prevention, 623 F.3d 1371,

48a
1379 (11th Cir. 2010)). The second amended complaint
in Aatrix included “concrete allegations . . . that
individual elements and the claimed combination are
not well-understood, routine, or conventional activity.”
Id. at 1128. For example, it alleged that the patents
“improve the functioning of the data processing systems, computers, and other hardware” and explained
in detail how the invention achieves these improvements. J.A. at 454 ¶ 107, Aatrix, 882 F.3d 1121; id. at
429 ¶¶ 38–39. “These allegations suggest[ed] that the
claimed invention is directed to an improvement in the
computer technology itself and not directed to generic
components performing conventional activities.” Aatrix,
882 F.3d at 1127. As we have previously held, “[i]n
ruling on a 12(b)(6) motion, a court need not ‘accept
as true allegations that contradict matters properly
subject to judicial notice or by exhibit,’ such as the
claims and the patent specification.” Secured Mail
Sols. LLC v. Universal Wilde, Inc., 873 F.3d 905, 913
(Fed. Cir. 2017). But nothing in the limited record we
could consider at the Rule 12(b)(6) stage refuted these
allegations, so there was no legal basis to affirm the
dismissal of the complaint. See, e.g., Aatrix, 882 F.3d
at 1128. These allegations “at a minimum raise[d]
factual disputes underlying the § 101 analysis, such as
whether the claim term ‘data file’ constitutes an
inventive concept, alone or in combination with other
elements, sufficient to survive an Alice/Mayo analysis
at the Rule 12(b)(6) stage.” Id. at 1126.
We cannot adopt a result-oriented approach to end
patent litigation at the Rule 12(b)(6) stage that would
fail to accept as true the complaint’s factual allegations and construe them in the light most favorable to
the plaintiff, as settled law requires. The conclusion
that the patent claims in Aatrix survived the motion
to dismiss is not a holding that they are eligible. And

49a
the mere fact that there were sufficient allegations in
the pleading to state a claim for patent infringement
does not mean that the case need go to trial.
There are many vehicles for early resolution of
cases. An accused infringer can move for summary
judgment at any time. In fact, under Rule 12(d), the
Rule 12(b)(6) motion could be converted into a summary judgment motion and decided under the summary
judgment standard rather than the harder Rule 12(b)(6)
standard. Alternatively, the court can raise summary
judgment sua sponte under Rule 56(f)(3). Moreover, if
the allegations in the complaint about the invention as
claimed ultimately lack evidentiary support or if the
case is exceptional, district courts can award attorneys’
fees to the accused infringer under either Rule 11 or §
285 to compensate the accused infringer for any
additional litigation costs it incurs.
As stated in Berkheimer, “Nothing in this decision
should be viewed as casting doubt on the propriety” of
our previous cases resolving patent eligibility on
motions to dismiss or summary judgment. 881 F.3d at
1368. Indeed, since Berkheimer and Aatrix, we have
continued to uphold decisions concluding that claims
were not patent eligible at these stages. See., e.g.,
SAP Am., Inc. v. InvestPic LLC, — F.3d —, 2018
WL 2207254, at *6 (Fed. Cir. 2018) (holding claims
ineligible at Rule 12(c) stage); Voter Verified, Inc. v.
Election Sys. & Software LLC, 887 F.3d 1376, 1385–86
(Fed. Cir. 2018) (same at Rule 12(b)(6) stage); Maxon,
LLC v. Funai Corp., Inc., — F. App’x —, 2018 WL
1719101, at *2 (Fed. Cir. 2018) (same); Intellectual
Ventures I LLC v. Symantec Corp., — F. App’x —, 2018
WL 1324863, at *1 (Fed. Cir. 2018) (same at summary
judgment); Automated Tracking Sols., LLC v. The

50a
Coca-Cola Co., — Fed. App’x —, 2018 WL 935455, at
*5–6 (Fed. Cir. 2018) (same at Rule 12(c) stage).
Patent law does not protect claims to an “asserted
advance in the realm of abstract ideas . . . no matter
how groundbreaking the advance.” SAP Am., 2018 WL
2207254, at *6. And in accordance with Alice, we have
repeatedly recognized the absence of a genuine dispute
as to eligibility for the many claims that have been
defended as involving an inventive concept based
merely on the idea of using existing computers or
the Internet to carry out conventional processes, with
no alteration of computer functionality. See, e.g.,
FairWarning IP, LLC v. Iatric Sys., Inc., 839 F.3d
1089, 1096–97 (Fed. Cir 2016) (holding claims
ineligible which “merely graft generic computer
components onto otherwise-ineligible method claims”);
Intellectual Ventures I LLC v. Capital One Bank, 792
F.3d 1363, 1370 (Fed. Cir. 2015) (“steps that do
nothing more than spell out what it means to ‘apply it
on computer’ cannot confer eligibility”); Ultramercial,
Inc. v. Hulu, LLC, 772 F.3d 709, 715–16 (Fed. Cir.
2014) (“implement[ing] the abstract idea with routine,
conventional activity” and “invocation of the Internet”
is not sufficient to save otherwise abstract claims). The
established precedents have thus properly permitted
pretrial resolution of many eligibility disputes.
Our decisions in Berkheimer and Aatrix are narrow:
to the extent it is at issue in the case, whether a claim
element or combination is well-understood, routine,
and conventional is a question of fact. This inquiry
falls under step two in the § 101 framework, in which
we “consider the elements of each claim both individually and ‘as an ordered combination’ to determine
whether the additional elements ‘transform the nature
of the claim’ into a patent eligible application.” Alice,

51a
134 S. Ct. at 2355 (quoting Mayo, 566 U.S. at 78–79).
It is clear from Mayo that the “inventive concept”
cannot be the abstract idea itself, and Berkheimer and
Aatrix leave untouched the numerous cases from this
court which have held claims ineligible because the
only alleged “inventive concept” is the abstract idea.
Mayo, 566 U.S. at 72–73 (requiring that “a process
that focuses upon the use of a natural law also contain
other elements or a combination of elements, sometimes referred to as an ‘inventive concept,’ sufficient to
ensure that the patent in practice amounts to significantly more than a patent upon the natural law itself”
(emphasis added)). “[A] claim directed to a newly
discovered law of nature (or natural phenomenon or
abstract idea) cannot rely on the novelty of that discovery for the inventive concept necessary for patent
eligibility; instead, the application must provide something inventive, beyond mere ‘well-understood, routine,
conventional activity.’” Genetic Techs. Ltd. v. Merial
LLC, 818 F.3d 1369, 1376 (Fed. Cir. 2016) (quoting
Mayo, 566 U.S. at 73). Whether a claim element is
well-understood, routine and conventional to a skilled
artisan in the relevant field at a particular time is a
fact question, and Berkheimer and Aatrix merely hold
that it must be answered under the normal procedural
standards, including the Federal Rules of Civil
Procedure standards for motions to dismiss or
summary judgment and the Federal Rules of Evidence
standards for admissions and judicial notice.
For the foregoing reasons, we concur in the order
denying en banc review.

52a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2017-1437
————
STEVEN E. BERKHEIMER,
Plaintiff-Appellant,
v.
HP INC., FKA HEWLETT-PACKARD COMPANY,
Defendant-Appellee.
————
Appeal from the United States District Court for the
Northern District of Illinois in
No. 1:12-cv-09023, Judge John Z. Lee.
————
LOURIE, Circuit Judge, with whom NEWMAN, Circuit
Judge, joins, concurring in the denial of the petition
for rehearing en banc.
I concur in the court’s declining to rehear this
case en banc. There is plausibility to the panel holding
that there are fact issues potentially involved in this
case concerning the abstract idea exception to patent
eligibility. And the panel, and the court, are bound to
follow the script that the Supreme Court has written
for us in § 101 cases.
However, I believe the law needs clarification by
higher authority, perhaps by Congress, to work its way
out of what so many in the innovation field consider
are § 101 problems. Individual cases, whether heard
by this court or the Supreme Court, are imperfect

53a
vehicles for enunciating broad principles because they
are limited to the facts presented. Section 101 issues
certainly require attention beyond the power of this
court.
We started from the statute that provides for
patents on “any new and useful process, machine,
manufacture, or composition of matter.” 35 U.S.C.
§ 101. The Supreme Court put a gloss on this provision
by excluding laws of nature, natural phenomena, and
abstract ideas. Le Roy v. Tatham, 55 U.S. (14 How.)
156, 174–75 (1852) (“[A] principle is not patentable.
A principle, in the abstract, is a fundamental truth; an
original cause; a motive; these cannot be patented, as
no one can claim in either of them an exclusive right.”);
Diamond v. Chakrabarty, 447 U.S. 303, 309 (1980)
(“The laws of nature, physical phenomena, and abstract
ideas have been held not patentable.”). So far, so good.
Laws of nature (Ohm’s Law, Boyle’s Law, the equivalence of matter and energy), properly construed,
should not be eligible for patent. Nor should natural
phenomena (lightning, earthquakes, rain, gravity,
sunlight) or natural products, per se (blood, brain,
skin). Of course, the latter are also unpatentable as
lacking novelty under § 102.
But it’s in the details that problems and uncertainties have arisen. The Court held in Mayo Collaborative
Services v. Prometheus Laboratories, Inc., that the
claim at issue “set forth laws of nature” and was
ineligible under § 101 as “a drafting effort designed to
monopolize the law of nature itself.” 566 U.S. 66, 77
(2012). That claim recited “[a] method of optimizing
therapeutic efficacy for treatment of an immunemediated gastrointestinal disorder, comprising” administering a drug and then measuring the level of a

54a
metabolite of the drug. Id. at 74–75 (quoting U.S.
Patent 6,355,623).
The Supreme Court whittled away at the § 101
statute in Mayo by analyzing abstract ideas and
natural phenomena with a two-step test, including
looking for an “inventive concept” at step two, thereby
bringing aspects of §§ 102 and 103 into the eligibility
analysis. Id. at 72–73, 90. The decision we now decide
not to rehear en banc holds that step two of the twostep analysis may involve the type of fact-finding that
underlies §§ 102 and 103, further complicating what
used to be a fairly simple analysis of patent eligibility
under § 101. We now are interpreting what began,
when it rarely arose, as a simple § 101 analysis, as a
complicated multiple-step consideration of inventiveness (“something more”), with the result that an
increasing amount of inventive research is no longer
subject to patent. For example, because the Mayo
analysis forecloses identifying any “inventive concept”
in the discovery of natural phenomena, we have held
as ineligible subject matter even meritorious inventions that “combined and utilized man-made tools of
biotechnology in a way that revolutionized prenatal
care.” Ariosa Diagnostics, Inc. v. Sequenom, Inc., 788
F.3d 1371, 1379 (Fed. Cir. 2015) (internal quotation
marks omitted).
The case before us involves the abstract idea exception to the statute. Abstract ideas indeed should not be
subject to patent. They are products of the mind,
mental steps, not capable of being controlled by others,
regardless what a statute or patent claim might say.
Gottschalk v. Benson, 409 U.S. 63, 67 (1972) (“[M]ental
processes, and abstract intellectual concepts are not
patentable, as they are the basic tools of scientific and
technological work.”). No one should be inhibited from

55a
thinking by a patent. See Letter from Thomas
Jefferson to Isaac McPherson (Aug. 13, 1813) (“[I]f
nature has made any one thing less susceptible, than
all others, of exclusive property, it is the action of the
thinking power called an Idea.”). Thus, many brilliant
and unconventional ideas must be beyond patenting
simply because they are “only” ideas, which cannot be
monopolized. Moreover such a patent would be unenforceable. Who knows what people are thinking?
But why should there be a step two in an abstract
idea analysis at all? If a method is entirely abstract, is
it no less abstract because it contains an inventive
step? And, if a claim recites “something more,” an
“inventive” physical or technological step, it is not an
abstract idea, and can be examined under established
patentability provisions such as §§ 102 and 103. Step
two’s prohibition on identifying the something more
from “computer functions [that] are ‘well-understood,
routine, conventional activit[ies]’ previously known to
the industry,” Alice Corp. Pty. Ltd. v. CLS Bank Int’l,
134 S. Ct. 2347, 2359 (2014) (alteration in original)
(quoting Mayo, 566 U.S. at 73), is essentially a §§ 102
and 103 inquiry. Section 101 does not need a two-step
analysis to determine whether an idea is abstract.
I therefore believe that § 101 requires further
authoritative treatment. Thinking further concerning
§ 101, but beyond these cases, steps that utilize
natural processes, as all mechanical, chemical, and
biological steps do, should be patent-eligible, provided
they meet the other tests of the statute, including
novelty, nonobviousness, and written description. A
claim to a natural process itself should not be
patentable, not least because it lacks novelty, but also
because natural processes should be available to all.
But claims to using such processes should not be

56a
barred at the threshold of a patentability analysis by
being considered natural laws, as a method that
utilizes a natural law is not itself a natural law.
The Supreme Court also held in Association for
Molecular Pathology v. Myriad Genetics, Inc., that
claims to isolated natural products were ineligible for
claiming “naturally occurring phenomena.” 569 U.S.
576, 590 (2013). The Court concluded that those claims
“are not patent eligible simply because they have been
isolated from the surrounding genetic material.” Id. at
596.
However, finding, isolating, and purifying such
products are genuine acts of inventiveness, which
should be incentivized and rewarded by patents. We
are all aware of the need for new antibiotics because
bacteria have become resistant to our existing products. Nature, including soil and plants, is a fertile
possible source of new antibiotics, but there will be
much scientific work to be done to find or discover,
isolate, and purify any such products before they can
be useful to us. Industry should not be deprived of the
incentive to develop such products that a patent
creates. But, while they are part of the same patenteligibility problems we face, these specific issues are
not in the cases before us.
Accordingly, I concur in the decision of the court not
to rehear this § 101 case en banc. Even if it was
decided wrongly, which I doubt, it would not work us
out of the current § 101 dilemma. In fact, it digs the
hole deeper by further complicating the § 101 analysis.
Resolution of patent-eligibility issues requires higher
intervention, hopefully with ideas reflective of the best
thinking that can be brought to bear on the subject.

57a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2017-1437
————
STEVEN E. BERKHEIMER,
Plaintiff-Appellant,
v.
HP INC., FKA HEWLETT-PACKARD COMPANY,
Defendant-Appellee.
————
Appeal from the United States District Court for the
Northern District of Illinois in
No. 1:12-cv-09023, Judge John Z. Lee.
————
REYNA, Circuit Judge, dissenting from the denial of
the petition for rehearing en banc.
The court’s vote to deny en banc review of Aatrix and
Berkheimer1 is a declaration that nothing has changed
in our precedent on patent subject matter eligibility
under 35 U.S.C. § 101. We are encouraged to move
1

This court’s opinion in Aatrix Software, Inc. v. Green Shades
Software, Inc., 882 F.3d 1121 (Fed. Cir. 2018), was issued six days
after the release of the court’s opinion in Berkheimer v. HP Inc.,
881 F.3d 1360 (Fed. Cir. 2018). In Aatrix, Green Shades filed a
Petition for Rehearing En Banc in which it raised two questions
essentially similar to the question that HP raises in its en banc
petition. As in Berkheimer, the court in Aatrix voted to deny Green
Shades’s petition for rehearing en banc. Given the similarity in
the questions raised in the Aatrix and Berkheimer petitions for
rehearing en banc, I filed identical dissents in both.

58a
along; there’s nothing to see here. I disagree. I believe
that, at minimum, the two cases present questions of
exceptional importance that this court should address
and not avoid.2
Perhaps the single most consistent factor in this
court’s § 101 law has been our precedent that the § 101
inquiry is a question of law. Stated differently, there
is no precedent that the § 101 inquiry is a question of
fact. The Aatrix and Berkheimer decisions are contrary
to that well-established precedent.
Aatrix and Berkheimer alter the § 101 analysis in a
significant and fundamental manner by presenting
patent eligibility under § 101 as predominately a
question of fact. For example, in addressing Alice
step two, the Aatrix and Berkheimer panels raised and
considered the same, exact question of “whether the
invention describes well-understood, routine, and conventional activities.” Aatrix, 828 F.3d at 1129; see also
Berkheimer, 881 F.3d at 1369.
After declaring this to be a question of fact, the
panels found this question dispositive of the step two
analysis. This action has the effect of reducing the
entire step two inquiry into what is routine and conventional, rather than determining if an inventive
2

Federal Rule of Appellate Procedure 35 and our Internal
Operating Procedures provide that en banc consideration is
required to overrule a precedent of this court. In addition, these
rules establish reasons for which en banc action should be taken,
including the necessity of securing or maintaining uniformity of
decisions; involvement of a question of exceptional importance;
necessity of overruling a prior holding of this or a predecessor
court expressed in an opinion having precedential status; or the
initiation, continuation, or resolution of a conflict with another
circuit. Based on these rules and procedures, sufficient reason
exists here for en banc review.

59a
concept expressed in the claims transforms the nature
of the claims into a patent-eligible application. Step
two is thus divorced from the claims.
Having made this profound change, the court offers
no meaningful guidance to the bar, the government, or
the public on how to proceed on these new grounds.3
3

The reaction of the patent bar and intellectual property community underscores the exceptional importance of the questions
presented by this court’s recent decisions and their departure
from precedent. On April 19, 2018, the USPTO issued a memorandum of changes in examination procedure in light of Berkheimer.
USPTO, Memorandum on Changes in Examination Procedure
Pertaining to Subject Matter Eligibility, Recent Subject Matter
Eligibility Decision (Berkheimer v. HP, Inc.) (Apr. 19, 2018),
available at https://www.uspto.gov/sites/default/files/documents/
memo-berkheimer-20180419.PDF. The memorandum highlights
that, for the first time, this court held that “whether something
is well-understood, routine, and conventional to a skilled artisan
at the time of the patent is a factual determination.” Id. at 2
(citing Berkheimer, 881 F.3d at 1369). Accordingly, the memo
“revises” the MPEP and changes USPTO examination procedure.
Id. at 3–5. The memorandum provides that now “an examiner
should conclude that an element (or combination of elements)
represents well-understood, routine, conventional activity only
when the examiner can readily conclude that the element(s) is
widely prevalent or in common use in the relevant industry” in
step two of the Mayo/Alice test. Id. at 3. The USPTO is also
“seeking public comment on its subject matter eligibility guidance,
and particularly its guidance in the Berkheimer memorandum
to the Patent Examining Corps.” Request for Comments on
Determining Whether a Claim Element Is Well-Understood,
Routine, Conventional for Purposes of Subject Matter Eligibility,
83 Fed. Reg. 17,536 (Apr. 20, 2018).
Further, district courts immediately started relying on these
decisions to deny summary judgment motions. E.g., Vaporstream,
Inc. v. Snap Inc., No. 2:17-CV-220, 2018 WL 1116530, at *6
(C.D. Cal. Feb. 27, 2018); Sycamore IP Holdings LLC v. AT & T
Corp., No. 2:16-CV-588, 2018 WL 936059, at *24 (E.D. Tex. Feb.
16, 2018). Commentators have described the decisions as a

60a
For example, to what extent will discovery be allowed
to prove or disprove a fact that has been placed in
contention? Does this new factual inquiry extend to
other aspects of the § 101 inquiry, such as whether
a claim is directed to an abstract idea or a natural
phenomenon? Can expert opinion supplant the written
description? Does the court or jury determine this
factual issue? What deference is due to the fact finder?
These and similar questions will have to be addressed
and resolved by the district courts. Instead of creating
a period of uncertainty with the expectation of
addressing these issues sometime in the future, this
court should address them now.
I.
The Supreme Court has characterized the § 101
patent-eligibility inquiry as a threshold test that
precedes the requirements described in §§ 102, 103,
and 112. See Alice Corp. Pty. Ltd. v. CLS Bank Int’l,
134 S. Ct. 2347, 2355 (2014); Mayo Collaborative
Servs. v. Prometheus Labs., Inc., 566 U.S. 66, 75
(2012); Bilski v. Kappos, 561 U.S. 593, 602 (2010).
Consistent with this characterization, this court has
held that patent eligibility under § 101 is an issue of
law. See, e.g., Intellectual Ventures I LLC v. Capital
“precedential sea change,” in tension with prior cases resolving
the eligibility question on the pleadings as a question of law, and
conflating the eligibility analysis with that of obviousness. E.g.,
Dennis Crouch, Patent Eligibility: Eligibility Analysis and Its
Underlying Facts: A Roadmap for Surviving Dismissal on the
Pleadings, PATENTLYO (Feb. 15, 2018), https://patentlyo.com/
patent/2018/02/eligibilityunderlying-surviving.html; Dennis Crouch,
Patent Eligibility: Underlying Questions of Fact, PATENTLYO
(Feb. 8, 2018), https://patentlyo.com/patent/2018/02/eligibilityunderlying-questions.html; Ryan Davis, Recent Patent-Eligibility
Cases Leave Unanswered Questions, LAW 360 (Mar. 12, 2018),
https://www.law360.com/articles/ 1020953?scroll=1o.

61a
One Fin. Corp., 850 F.3d 1332, 1338 (Fed. Cir. 2017);
Versata Dev. Grp., Inc. v. SAP Am., Inc., 793 F.3d
1306, 1331 (Fed. Cir. 2015) (“We review questions
concerning compliance with the doctrinal requirements of § 101 of the Patent Act (and its constructions)
as questions of law, without deference to the trial
forum.”); OIP Techs., Inc. v. Amazon.com, Inc., 788
F.3d 1359, 1362 (Fed. Cir. 2015) (“Patent eligibility
under 35 U.S.C. § 101 is an issue of law reviewed de
novo.”); Prometheus Labs., Inc. v. Mayo Collaborative
Servs., 628 F.3d 1347, 1353 (Fed. Cir. 2010) (“Whether
a patent claim is directed to statutory subject matter
is a question of law that we review de novo.” (citation
omitted)), rev’d on other grounds, 566 U.S. 66 (2012);
In re Bilski, 545 F.3d 943, 951 (Fed. Cir. 2008) (en
banc) (“Whether a claim is drawn to patent-eligible
subject matter under § 101 is an issue of law that we
review de novo.”), aff’d in part, rev’d in part, 561 U.S.
593 (2010). Accordingly, this court has routinely
resolved patent-eligibility issues on the pleadings. See,
e.g., FairWarning IP, LLC v. Iatric Sys., Inc., 839 F.3d
1089, 1097 (Fed. Cir. 2016); Content Extraction &
Transmission LLC v. Wells Fargo Bank, Nat’l Ass’n,
776 F.3d 1343, 1349 (Fed. Cir. 2014).
The two-step test for assessing subject matter eligibility under § 101 evolved from framework introduced
by the Supreme Court in Mayo and refined in Alice.
First, we determine whether “the claims at issue are
directed to one of those patent-ineligible concepts,” i.e.,
laws of nature, natural phenomena, and abstract
ideas. Alice, 134 S. Ct. at 2355. If so, we proceed to step
two, and consider elements of each claim both individually and “as an ordered combination” to determine
whether the additional elements “‘transform the nature
of the claim’ into a patent-eligible application.” Id.
(quoting Mayo, 566 U.S. at 79). This inquiry has been

62a
described as a search for other elements or a combination of elements, occasionally referred to as an “inventive
concept,” sufficient to ensure that the patent in practice amounts to significantly more than a patent upon
the natural law or abstract idea itself. Mayo, 566 U.S.
at 72–73. Importantly, step two of the analysis is
directed to the remaining elements of the claim—
“[w]hat else is there in the claims before us?”—after
the court determines that the claim is directed to one
of the patent-ineligible concepts. Mayo, 566 U.S. at 78
(emphasis added). The inventive concept determination is limited to the “additional elements” of the
claim to determine whether these additional elements
transform the nature of the claim into a patent-eligible
application. Alice, 134 S. Ct. at 2355; see also Mayo,
566 U.S. at 77; Ariosa Diagnostics, Inc. v. Sequenom,
Inc., 788 F.3d 1371, 1377 (Fed. Cir. 2015).
The Court’s treatment of the “inventive concept”
search at step two makes clear that this inquiry is
predominately a legal question focused on the claims.
The inventive concept cannot merely be alleged; rather,
“the claim ha[s] to supply a ‘new and useful’ application of the idea in order to be patent eligible.” Alice,
134 S. Ct. at 2357 (emphasis added) (quoting Gottschalk
v. Benson, 409 U.S. 63, 64 (1972)); Mayo, 566 U.S. at
80, 84 (discussing Diamond v. Diehr, 450 U.S. 175
(1981), and concluding that although the process claimed
a basic mathematical equation, the overall process
was patent eligible “because of the way the additional
steps of the process integrated the equation into the
process as a whole”). Evidence of prior art, the prosecution history, and allegations of inventiveness are of no
significance if these alleged innovative concepts are
not captured by the claims. See Recognicorp, LLC v.
Nintendo Co., 855 F.3d 1322, 1327 (Fed. Cir. 2017)
(“To save a patent at step two, an inventive concept

63a
must be evident in the claims.” (emphasis added)).
Thus, both steps of Alice are legal questions that the
court must resolve by looking at the claims and written
description. See Content Extraction, 776 F.3d at 1347.
Contrary to this established body of law, the
majority opinion in Aatrix emphatically declares that
the inventive concept inquiry “cannot be answered
adversely to the patentee based on the sources properly
considered on a motion to dismiss, such as the complaint, the patent, and materials subject to judicial
notice.” Aatrix, 882 F.3d at 1128 (emphasis added). In
other words, the Aatrix decision suggests that mere
allegations of an inventive concept are sufficient to
preclude a finding of subject matter eligibility at the
Rule 12(b)(6) stage. Indeed, many of the allegations
regarding inventive concept in Aatrix’s proposed second
amended complaint—such as references from the prior
art and the success of the claimed inventions4—are
4

Aatrix’s new allegations in the Second Amended Complaint
included the following: the background and development of
the inventions of the Aatrix Patents; specific allegations and
diagrams spelling out the technology of the Aatrix Patents; the
prosecution history of the patents with the relevant USPTO file
wrappers attached as exhibits; a large number of prior art
references and patentably distinct means and methods of creating, displaying and filling out forms on computers, such as Aatrix’s
own “monolithic software”; hundreds of search results by the
USPTO disclosing prior art in the field; eleven patents or
publications disclosing prior art and/or patentably distinct means
and methods cited by the USPTO in the prosecution of the applications for the Aatrix’s patents; several products for creating,
designing and filling out forms, allegedly distinct from Aatrix’s
patents, on sale before the date of invention; alternative methods
for creating, displaying and filling out forms such as Superforms
and the use of SDK’s to launch monolithic software; and the
allegedly many improvements, objectives, and advantages over
the prior art that the inventions of Aatrix’s patents provide,

64a
wholly divorced from the claims themselves. Nor are
the allegations tethered to the application of the
abstract idea at issue; the step two inquiry “asks if . . .
there is some inventive concept in the application of
the abstract idea” described in the claims—i.e.,
whether some additional steps in the claimed process
integrate the claimed abstract idea into patentable
application. See Enfish, LLC v. Microsoft Corp., 822
F.3d 1327, 1336 (Fed. Cir. 2016).
Similarly, the majority in Aatrix contends that
“[t]here are concrete allegations in the second amended
complaint that individual elements and the claimed
combination are not well-understood, routine, or conventional activity.” 882 F.3d at 1128. However, the fact
that steps or applications are deemed not “routine” or
“conventional” does not necessarily result in finding
that the subject matter has been rendered eligible
under step two. See SAP Am., Inc. v. Investpic LLC,
No. 17-2081, slip op. at 2 (Fed. Cir. May 15, 2018) (“We
may assume [for Rule 12(c) purposes] that the techniques claimed are ‘[g]roundbreaking, innovative, or
even brilliant,’ but that is not enough for eligibility.”).
Thus, Aatrix removes the inventive concept inquiry
from the claims and the specification, and instead
places it firmly in the realm of extrinsic evidence. This
is a change in our law, and is counter to guidance from
the Supreme Court and our own precedent. See Alice,
134 S. Ct. at 2357 (“[W]e must examine the elements
of the claim to determine whether it contains an
‘inventive concept.’” (emphasis added)); Synopsys, Inc.
v. Mentor Graphics Corp., 839 F.3d 1138, 1149 (Fed.

including improvements in the functioning of the computer
components of the inventions. Aatrix, J.A. 407–09.

65a
Cir. 2016) (“The § 101 inquiry must focus on the
language of the Asserted Claims themselves.”).
The consequences of this decision are staggering
and wholly unmoored from our precedent. Unlike prior
art for purposes of §§ 102 and 103, we have no
established parameters or guidance for what evidence
we can and should consider for inventive concept
purposes. And although the § 101 inquiry has often
been described as a “threshold” issue, capable of
early resolution, transforming the predominately legal
inquiry into a factual dispute almost guarantees that
§ 101 will rarely be resolved early in the case, and will
instead be carried through to trial. Before now, none
of our decisions support the proposition that a jury
should decide whether a patent includes an inventive
concept sufficient to survive Alice step two. And given
our adoption of Aatrix and Berkheimer, I see no principled reason that would restrain extending a factual
inquiry to step one of Alice.
The approach adopted in Aatrix also threatens to
upset the Alice framework by letting the inventive
concept inquiry swallow the entirety of step two.
Merely identifying an inventive concept is insufficient;
the additional elements must also “‘transform the
nature of the claim’ into a patent-eligible application.”
Instead, by emphasizing whether the claimed elements
are “not well-understood, routine, or conventional,”
the approach in Aatrix reduces the § 101 inquiry into
a novelty analysis. This is improper. See Diamond,
450 U.S. at 188–91 (“The question . . . of whether a
particular invention is novel is wholly apart from
whether the invention falls into a category of statutory
subject matter.” (emphasis added)); Parker v. Flook,
437 U.S. 584, 588 (1978) (holding the subject matter
eligibility inquiry “does not involve the familiar issues

66a
of novelty and obviousness that routinely arise under
§§ 102 and 103 when the validity of a patent is challenged”). In the § 101 inquiry, issues of patentability—
i.e., novelty and obviousness under §§ 102 and 103
are “of no relevance.” Diamond, 450 U.S. at 189.
Allegations that a claimed invention is not routine or
conventional, without more, cannot wholly replace the
§ 101 inquiry under Alice steps one and two. Although
whether the claimed elements or claimed combination
are well-understood, routine or conventional may be
disputed, if the inventive concept is not evident in the
claims, the court should not be precluded from holding
the claims patent ineligible under § 101 at the pleadings stage. If such claimed improvements are absent
from the face of the asserted patent, which in this case
they are, there is no inventive concept sufficient to
save an otherwise ineligible patent.
II.
Unlike the novelty and obviousness inquiries under
§§ 102 and 103, which necessarily involve factual
determinations relating to the scope and content of
prior art, the § 101 analysis is analogous to contract
interpretation, in which a legal determination is made
by reviewing the face of the contract, and additional
fact finding is warranted only in some limited circumstances. See, e.g., Kamfar v. New World Rest. Grp.,
Inc., 347 F. Supp. 2d 38, 48–49 (S.D.N.Y. 2004)
(“Under New York law, the initial interpretation of a
contract is a matter of law for the court to decide.
Where the agreement is unambiguous, a court may not
admit extrinsic evidence and interprets the plain
language of the agreement as a matter of law.”). A
patent is an agreement between the patent owner and
the public describing the patent owner’s intellectual

67a
property rights. The terms and conditions of the
contract can be analogized to the claims of the patent.
5

The fact that the parties disagree on the proper
interpretation of the contract does not render the
contractual language ambiguous. See Metro. Life Ins.
Co. v. RJR Nabisco, Inc., 906 F.2d 884, 889 (2d Cir.
1990) (“Language whose meaning is otherwise plain
is not ambiguous merely because the parties urge
different interpretations in the litigation.”). Further, a
party’s assertion of ambiguity does not require the
district court to allow additional opportunities to find
or present evidence if the court considers the contract
language and the evidence the parties have presented
and concludes that the language is reasonably susceptible to only one interpretation. Skilstaf, Inc. v. CVS
Caremark Corp., 669 F.3d 1005, 1017–18 (9th Cir.
2012); see also M & G Polymers USA, LLC v. Tackett,
135 S. Ct. 926, 938 (2015) (Ginsburg, J., concurring)
5

See, e.g., Oil States Energy Servs. v. Greene’s Energy Grp.,
LLC, 138 S. Ct. 1365, 1382 (2018) (Gorsuch, J., dissenting); Pfaff
v. Wells Elecs., Inc., 525 U.S. 55, 63 (1998) (“[T]he patent system
represents a carefully crafted bargain that encourages both the
creation and the public disclosure of new and useful advances in
technology, in return for an exclusive monopoly for a limited
period of time.”); George Ticknor Curtis, A Treatise on the Law of
Patents for Useful Inventions in the United States Of America 1
(3d ed. 1867) (“A patent for a useful invention . . . is the grant
by the government to the author of a new and useful invention,
of the exclusive right, for a term of years, of practicing that
invention. The consideration . . . is the benefit to society from the
invention . . . .”); Srividhya Ragavan, Correlative Obligation in
Patent Law: The Role of Public Good in Defining the Limits of
Patent Exclusivity, 6 N.Y.U. J. Intell. P. & Ent. L. 47, 53 (“The
grant of monopoly rights is a contract with the government in
exchange for the patent holder providing a benefit to society. . . .
The contract necessarily balances granted rights with imposed
corresponding obligations of the patent owner.”).

68a
(“When the intent of the parties is unambiguously
expressed in the contract, that expression controls,
and the court’s inquiry should proceed no further. But
when the contract is ambiguous, a court may consider
extrinsic evidence to determine the intentions of the
parties.”) (citing 11 Richard A. Lord, Williston on
Contracts §§ 30:2, 30:6, 30:7 (4th ed. 2012)).
Adopting the principles from contract interpretation, a plaintiff’s allegations of inventiveness do not
necessarily render the claims of the patent (i.e.,
contract) “ambiguous” to justify considering evidence
outside of the patent. The factual allegations of the
inventiveness of the claimed invention do not have to
be accepted by the court if the claims of the asserted
patent do not reflect the alleged innovative concepts
and transform the nature of the claim into a patenteligible abstract idea. See, e.g., Ariosa, 788 F.3d at
1379 (“Sequenom argues that ‘before the ’540 patent,
no one was using the plasma or serum of pregnant
mothers to amplify and detect paternally-inherited
cffDNA.’ This argument implies that the inventive
concept lies in the discovery of cffDNA in plasma or
serum. Even if so, this is not the invention claimed by
the ’540 patent.” (citation omitted)).
The § 101 inquiry can similarly be analogized to
claim construction. When construing patent claims,
the court may rely on factual findings in some instances,
but predominately construes the terms according to
the claims and specification, i.e., a purely legal determination. The Supreme Court has said as much:
We recognize that a district court’s construction of a patent claim, like a district court’s
interpretation of a written instrument, often
requires the judge only to examine and to construe the document’s words without requiring

69a
the judge to resolve any underlying factual
disputes. As all parties agree, when the district
court reviews only evidence intrinsic to the
patent (the patent claims and specifications,
along with the patent’s prosecution history),
the judge’s determination will amount solely
to a determination of law, and the Court of
Appeals will review that construction de novo.
Teva Pharm. USA, Inc. v. Sandoz, Inc., 135 S. Ct. 831,
840–41 (2015) (emphasis added).
A § 101 patent eligibility determination can be
resolved without the need to look beyond the four
corners of the patent. Thus, the analysis becomes
solely a question of law for the court to properly decide.
This does not mean that there will never be factual
allegations that would preclude dismissal for ineligible subject matter, but consistent with our precedent,
such a determination can be made based solely on the
claims and written description. See, e.g., In re TLI
Commc’ns LLC Patent Litig., 823 F.3d 607, 613 (Fed.
Cir. 2016) (refusing to engage in fact finding in the
§ 101 inquiry when the specification sufficiently described
the claimed functions); see also Williamson v. Citrix
Online, LLC, 792 F.3d 1339, 1346 (Fed. Cir. 2015) (en
banc) (“Regarding questions of claim construction . . .
the district court’s determinations based on evidence
intrinsic to the patent as well as its ultimate interpretations of the patent claims are legal questions that
we review de novo.”). In fact, “[i]n many cases . . .
evaluation of a patent claim’s subject matter eligibility
under § 101 can proceed even before a formal claim
construction.” Genetic Techs. Ltd. v. Merial L.L.C.,
818 F.3d 1369, 1374 (Fed. Cir. 2016); see also Bancorp
Servs., L.L.C. v. Sun life Assurance Co. of Can.
(U.S.), 687 F.3d 1266, 1273 (Fed. Cir. 2012) (“[C]laim

70a
construction is not an inviolable prerequisite to a
validity determination under § 101.”)
Accordingly, just as in claim construction and contract interpretation, looking beyond the four corners of
the patent should only occur in exceptional circumstances. A factual allegation or dispute should not
automatically take the determination out of the court’s
hands; rather, there needs to be justification for why
additional evidence must be considered—the default
being a legal determination.
Whether a § 101 analysis is more akin to §§ 102 or
103 analysis—i.e., predominately factual—or contract
interpretation and claim construction—i.e., predominately legal—is significant, for example, in the context
of a Rule 12(b)(6) motion because these legal determinations can be decided at an early stage of the case
rather than having to proceed to summary judgment
or trial. See OIP Techs., 788 F.3d at 1364–65 (Mayer,
J., concurring) (“Addressing 35 U.S.C. § 101 at the
outset not only conserves scarce judicial resources and
spares litigants the staggering costs associated with
discovery and protracted claim construction litigation,
it also works to stem the tide of vexatious suits brought
by the owners of vague and overbroad business
method patents. Accordingly, where, as here, asserted
claims are plainly directed to a patent ineligible abstract
idea, we have repeatedly sanctioned a district court’s
decision to dispose of them on the pleadings.”).
III.
The court’s inaction today has prevented us from
exploring the important question raised in the en banc
petitions. The en banc process is intended to offer
careful, in-depth study by the full court of exceptionally important questions, with the benefit of briefing

71a
and argument by the parties, involvement of amici,
and hearing the government’s views. I dissent from
court’s vote to reject this benefit, in particular where
the Aatrix and Berkheimer decisions upset established
precedent and offer no guidance to the many questions
they raise.

72a
APPENDIX E
RELEVANT STATUTORY PROVISION
The Patent Act, 35 U.S.C. § 1 et seq., provides in
relevant part:
§ 101. Inventions patentable
Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof,
may obtain a patent therefor, subject to the conditions
and requirements of this title.

